<html>
<title> - KEEPING THE PROMISE FOR ARIZONA VETERANS: THE VA CHOICE CARD, MANAGEMENT ACCOUNTABILITY, AND PHOENIX VA MEDICAL CENTER</title>
<body><pre>[Senate Hearing 114-595]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-595
 
     KEEPING THE PROMISE FOR ARIZONA VETERANS: THE VA CHOICE CARD, 
        MANAGEMENT ACCOUNTABILITY, AND PHOENIX VA MEDICAL CENTER

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 14, 2015

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              
       


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
                             ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 23-617 PDF               WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                   Johnny Isakson, Georgia, Chairman
Jerry Moran, Kansas                  Richard Blumenthal, Connecticut, 
John Boozman, Arkansas                   Ranking Member
Dean Heller, Nevada                  Patty Murray, Washington
Bill Cassidy, Louisiana              Bernard Sanders, (I) Vermont
Mike Rounds, South Dakota            Sherrod Brown, Ohio
Thom Tillis, North Carolina          Jon Tester, Montana
Dan Sullivan, Alaska                 Mazie K. Hirono, Hawaii
                                     Joe Manchin III, West Virginia
                       Tom Bowman, Staff Director
                 John Kruse, Democratic Staff Director
                 
                 
                 
                            C O N T E N T S

                              ----------                              

                           December 14, 2015
                                SENATORS

                                                                   Page
Sullivan, Hon. Dan, Acting Chairman, U.S. Senator from Alaska....     1
McCain, Hon. John, U.S. Senator from Arizona.....................     3
Flake, Hon. Jeff, U.S. Senator from Arizona......................     5

                               WITNESSES

Byers, Charles ``Chuck,'' Vietnam Veteran........................     6
    Prepared statement...........................................     8
Mitchell, Katherine L., M.D., former employee of the Phoenix VA 
  Health Care System.............................................     9
    Prepared statement...........................................    12
Morris, Nicole, U.S. Navy Veteran................................    39
    Prepared statement...........................................    39
Shulkin, David J., M.D., Under Secretary for Health, U.S. 
  Department of Veterans Affairs; accompanied by Thomas Lynch, 
  M.D., Assistant Deputy Under Secretary for Health Clinical 
  Operations; and Kathleen Fogarty, Interim Director, VISN 18: 
  Southwest Health Care Network..................................    42
    Prepared statement...........................................    44
    Letter clarifying testimony..................................    88
McIntyre, David J., Jr., President and Chief Executive Officer, 
  TriWest Healthcare Alliance....................................    49
    Prepared statement...........................................    52


     KEEPING THE PROMISE FOR ARIZONA VETERANS: THE VA CHOICE CARD, 
        MANAGEMENT ACCOUNTABILITY, AND PHOENIX VA MEDICAL CENTER

                              ----------                              


                       MONDAY, DECEMBER 14, 2015

                                        U.S. Senate
                             Committee on Veterans' Affairs
                                                        Gilbert, AZ
    The Committee met, pursuant to notice, at 11:08 a.m., at 
Gilbert Town Hall, 50 East Civic Center Drive, Gilbert, 
Arizona, Hon. Dan Sullivan presiding.
    Present: Senators Sullivan [presiding], McCain, and Flake.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. The Senate Veterans' Affairs Committee 
oversight hearing will now come to order. I would like the 
first panel of witnesses to take their seats.
    Good morning, everybody. My name is Dan Sullivan. I am a 
U.S. Senator from Alaska, a Member of the Senate Veterans' 
Affairs Committee, and a veteran myself with 22 years of Active 
Duty and Reserve service as a Marine Corps infantry officer.
    Today's hearing is a continuation of oversight hearings we 
have been conducting on how the VA has been implementing a 
series of laws passed in 2014. I am very pleased to be joined 
by my distinguished Senate colleagues, Senator John McCain and 
Senator Jeff Flake.
    Alaska and Arizona are big States, proud States. While our 
winter temperatures might differ some, we have many things in 
common, in particular a large population of veterans.
    As many of you know, Arizona has over 535,000 veterans 
making up over 8 percent of this State's population. I am sure 
my colleagues from Arizona would agree that it is our strong 
population of proud veterans that truly makes the States of 
Arizona and Alaska resource-rich.
    This morning, we are here to continue the important work of 
ensuring that each and every veteran in Arizona, in Alaska, and 
throughout the country, gets the care they have earned and the 
care they deserve.
    Less than 2 years ago here in Arizona at the Phoenix VA, 
our country learned that our veterans here and across the 
Nation were not getting the care that they deserved, the care 
that they need, and the care that they have earned. From hidden 
waitlists and poor reporting, the VA was simply not doing its 
job, and veterans were falling through the cracks.
    Rightfully, the country was outraged; our veterans were 
outraged. Then, their elected officials in Congress acted.
    A few months after these issues came to light, Congress 
came together and passed the Veterans Access, Choice and 
Accountability Act of 2014, better known as the Choice Act. 
This bill was passed by a very bipartisan majority in the House 
and Senate. Within a week of its passage, the Choice Act was 
signed into law.
    One of the many reasons I am honored to be on this dais 
with Senators McCain and Flake today is that they were two of 
the leaders in the U.S. Senate to make this happen. Senator 
McCain, in particular, has been advocating for the Choice card 
and choice issues for years.
    However, since this bipartisan effort to pass the Choice 
Act, the implementation of the law has been rocky at best. Our 
veterans are still not seeing the quality of care or access to 
it that they deserve. They are still waiting too long for 
appointments.
    Twice Congress has had to correct issues with 
implementation since the passage of the Choice Act, once when 
improperly calculated distance requirements by the VA had to be 
changed in law; and, again, when the VA ran out of money to 
implement the Choice Act.
    Thus far, we have seen that while Choice is working in some 
areas, it is failing in other places like my State of Alaska, 
and is having serious implementation problems here in Arizona.
    I understand that the implementation of such a large 
program like the Veterans Choice Act is difficult. However, the 
fact that something is difficult cannot and should not be used 
for justification for delay or failure. Regardless of how 
challenging the task may be, our veterans always deserve the 
maximum effort and the best results from the VA and Congress.
    When the call went out for our veterans to serve, they put 
their country first and answered the call. We are here in 
Arizona today because, as a Nation, it is our turn to answer 
the call and put them first.
    Today's oversight hearing marks the sixth one that the 
Senate Veterans' Affairs Committee has held on the Veterans 
Choice program, the sixth one just this year: three in DC and 
field hearings in Alaska, Georgia, and now Arizona.
    The Committee felt it was particularly important to have 
such a hearing here, given that many of the problems were 
originally recognized here, and, as I mentioned, the leadership 
of Senators McCain and Flake in playing such an important role 
in devising the comprehensive solution to some of our VA 
problems throughout the country.
    I would also like to mention, under the strong leadership 
of the Veterans' Affair Committee, Chairman Johnny Isakson of 
Georgia has sought to remind the senior leadership of the VA 
who they really serve--not Congress, not the President, but our 
veterans.
    We have an outstanding group of witnesses today. As you 
see, with regard to the first panel, we have a former VA 
employee and a whistleblower who took a lot of courageous 
actions. It will be very interesting to hear from her. That is 
Dr. Mitchell. We have two Arizona veterans, Mr. Byers and then 
Ms. Morris, who is stuck and a little bit of traffic but she 
should be joining us soon.
    I would like to welcome all the veterans who are here today 
in the audience. It is important to recognize that although we 
will not be taking testimony from everybody, we will have the 
opportunity to hear from all of you. If you would like to 
submit written testimony, you can do so at this address. It is 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="106065727c79734f64756364797d7f7e6950">[email&#160;protected]</a> Sullivan.Senate.gov. We can provide that 
again. I know that some of the veterans here wanted to make 
comments. You can submit written testimony that will be part of 
this official Senate hearing record. We will certainly be 
reading that.
    Without further delay, I now would like to recognize the 
chairman of the Senate Armed Services Committee, a veteran, a 
war hero, my good friend, Senator John McCain, for his opening 
remarks.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you. I appreciate Senator Sullivan 
from the great State of Alaska being here to chair this field 
hearing of the Senate Veterans' Affairs Committee today. 
Senator Sullivan is a proud Marine, and he has worked 
diligently and tirelessly over the past year to improve our 
Nation's security and fight for those who have served in 
uniform. Veterans of this country are fortunate to have Senator 
Sullivan advocating on their behalf.
    I want to thank the Chairman of the Veterans' Affairs 
Committee, Senator Johnny Isakson from Georgia, who was unable 
to be here with us today. He is doing a great job as Committee 
chairman. He is examining many things, including how veterans 
are using and in some cases how the VA is not helping the use 
of the VA Choice card.
    I am grateful to the city of Gilbert for hosting us in this 
facility. Being here is very helpful to our having a full 
discussion. I would like to take a minute to recognize and 
thank the city of Gilbert for their support of veterans through 
their various programs such as Operation Welcome Home and 
support of homeless veterans through the Homeless Veterans East 
Valley Partnership. I would also like to congratulate the city 
of Gilbert, which was recognized this year as being in the top 
five best cities in the United States for veterans.
    I will never forget the town hall forum I hosted in Phoenix 
where I heard directly from the families of four veterans who 
passed away in recent months. They came and stood before a 
crowded room to tell their stories. With tears in their eyes, 
they described how their loved ones suffered because they were 
not provided the care they needed and deserved. They recalled 
countless unanswered phone calls and ignored messages, wait 
times and delays, mountains of bureaucratic red tape, while 
their loved ones, those who selflessly served their country, 
experienced painful, debilitating, and ultimately fatal 
conditions.
    No one should be treated this way in a country as great as 
ours. But, to ignore the pleas for help and care from those who 
have sacrificed on behalf of the United States is 
unconscionable. We should all--all of us--be ashamed.
    The scandal at Phoenix led to revelations of similar 
problems at other VA medical centers around the country where 
bureaucrats were gaming the system to get better bonuses by 
denying care to our veterans. This strategy created a crisis of 
confidence toward the VA, the Federal agency that was 
established to care for them.
    I am happy to note that Congress responded quickly in a 
bipartisan manner to this crisis in a matter of weeks. The 
House and Senate passed the Veterans Access, Choice and 
Accountability Act. This bill provided an unprecedented $15 
billion in immediate emergency appropriations that was added on 
the Veteran Health Administration's regular annual budget of 
about $60 billion to hire more doctors and nurses and to issue 
the VA Choice card for those veterans who could not get into a 
VA for their health care.
    The bill also gave the VA direct hiring authority so that 
all of the cumbersome rules and regulations for bringing on 
board new Federal employees could be waived to fill vacancies.
    We will be discussing more about the budget and resources 
provided to the VA on the next panel.
    Congress also provided the Secretary of the VA with nearly 
unprecedented ability to terminate senior executives who fail 
to care for our veterans. No other Cabinet official has this 
powerful tool to ensure performance and results from its 
department's top officials.
    I continue to be disappointed that Secretary McDonald has 
not used this authority to its fullest extent. As I have said, 
it is past time for accountability and leadership at the VA.
    I want to thank our witnesses today on the first panel. Dr. 
Mitchell is a former employee of the VA Medical Center and a 
whistleblower. She will have very interesting comments to make.
    Mr. Charles ``Chuck'' Byers is a Vietnam veteran himself 
and an advocate for all veterans here in Phoenix. His ability 
to receive care through the Choice program is a success story.
    Finally, Ms. Nicole Morris, who is still not here.
    I am sure everyone in this room agrees we owe a solemn debt 
to those in uniform who fought on our behalf in faraway places.
    I just want to make a brief comment on the makeup of our 
second panel, which will consist of VA witnesses, as there has 
been a last-minute change.
    Last Friday, my staff was informed that the VA determined 
that a senior manager at the Phoenix VA, who was originally due 
to testify today, retaliated against a VA whistleblower. In 
light of this recent information, he will not be testifying 
this morning while we determine what has occurred with his 
case.
    Needless to say, all of us take issue with whistleblower 
retaliation at the VA very, very seriously. We have been 
discussing the matter with Secretary McDonald, especially in 
light of concerns about systemic problems in this regard that 
the Office of Special Counsel raised directly with the 
President a few months ago.
    After today's hearing, Senator Flake and I are sending a 
letter to Secretary McDonald to find out exactly what occurred 
in this retaliation case we were just made aware of and how it 
was handled.
    With that in mind, we have a number of issues that more 
broadly impact Arizona veterans to cover, and many of those 
veterans are here today to tell us about their experiences. 
Today, we will be focusing on the Choice card implementation 
and continuing problems with excessive wait times that our 
veterans face.
    For the 9 million American veterans who are enrolled in the 
VA today and for the families who lost loved ones awaiting care 
that never came and are still grieving their losses, it is time 
to live up to the VA's mission today, ``To care for him who 
shall have borne the battle and for his widow and his orphan.''
    I thank you again, Senator Sullivan, for being here. I am 
very pleased to note, we did not have this hearing in Alaska. I 
thank you. [Laughter.]
    The Chairman. Thank you, Senator McCain.
    As I mentioned, it is truly an honor to be on a panel with 
both Senator McCain and Senator Flake, who, in my discussions 
with him over the course of the last year, I know is fully 
committed to taking care of our veterans. Again, the two 
Senators from Arizona played such leadership roles in 
addressing the issues that it is an honor to be here with both 
of them.
    Senator Flake, your opening statement?

                 STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. Thank you, Chairman Sullivan. Thank you for 
chairing this hearing, and thank you for coming all this way 
and bringing Alaska winter weather with you anyway.
    I just want to say, from the beginning, with problems long 
before that, Senator McCain has been advocating for veterans. 
Throughout this issue, with the Phoenix VA as the epicenter of 
this latest problem that we had, Senator McCain from the 
beginning was pushing hard to make sure that veterans received 
Choice and that there is accountability. This field hearing is 
part of that.
    I am glad to have had the Choice Act passed. Yet, as 
Senator McCain and Senator Sullivan both said, there are issues 
with its implementation. We want to make sure that it goes 
forward.
    Also, in light of the October VA Inspector General report, 
noting problems still in the urology department in particular 
at the Phoenix VA, talking about substandard care there and 
delays that may have contributed to the deaths of veterans, we 
remain concerned and want to make sure that those issues are 
fixed. It is beyond unacceptable if we are still having those 
kinds of issues.
    Obviously, we want to make sure that, as I mentioned, the 
Choice Act continues to be implemented, and that the problems 
we had early on are dealt with.
    Thank you, Senator Sullivan, for coming here and thank you, 
Senator McCain, for pushing this issue all the time.
    I can tell you, being in the Senate, Senator McCain is 
always pushing veterans' issues and making sure that the 
veterans here and across the country get the care that they 
deserve. So, thank you for being here.
    The Chairman. Thank you.
    Now we will begin with our first panel. I would ask the 
witnesses to please try to keep their opening statements to 5 
minutes. Our goal is to have each panel for about an hour.
    Mr. Byers, the floor is yours.

             STATEMENT OF CHARLES ``CHUCK'' BYERS, 
                        VIETNAM VETERAN

    Mr. Byers. Thank you, Senator Sullivan, Senator McCain, and 
Senator Flake. Thank you for inviting me today to speak about 
the VA Choice card, management accountability, and the Phoenix 
VA Medical Center, and, as we say, keeping the promise to 
Arizona veterans.
    In August 2013, I moved to Arizona from New Jersey. I was 
enrolled in the Philadelphia VA health care system. I knew I 
had to transfer my eligibility to the Phoenix VA hospital care 
system. In September of that year, I applied to the Southeast 
Clinic in Mesa Arizona.
    I was told it would be at least 1.5 years before I could 
get a primary care doctor. I was even told that it might be 
sooner if I go down to the Tucson VA. I could not wait because 
I was receiving medication from my VA in Philadelphia. But, if 
the doctors do not see you, they will not renew your 
prescriptions.
    I went downtown to the Phoenix VA Hospital, which is about 
50 miles away from my home and was told the same thing. Then I 
spoke to an advocate. I was able to get an appointment in about 
9 months. They told me the reason for such a long wait time was 
due to a decrease in staffing and staff leaving for better 
paying opportunities outside the VA system.
    I was not satisfied so I called the Office of Inspector 
General in Washington, DC, and filed a complaint. In about 2 
weeks, I received a call from a VISN that oversees the Phoenix 
VA system and was given an appointment for a primary care 
physician at the Mesa Southeast Clinic.
    I know how to advocate, but there are a lot of veterans out 
here who do not. Some of them will just give up.
    Now I am officially enrolled in the Phoenix VA health care 
system, and I am out there seeing my primary care physician and 
receiving my medication.
    Before I left the Philadelphia VA, I was being seen for a 
urological condition and should have a follow-up. I requested 
an appointment for urology to my primary care physician. I 
waited over a year for my request for a urology appointment and 
was finally contacted by TriWest to see an outside urologist.
    I received excellent care with multiple visits with the 
outside group. At this time, the Phoenix VA offered very little 
urological services, and there were a lot of veterans who were 
referred out to this group for their care.
    After a follow-up visit, I was told the urology practice 
has dropped their contract with TriWest because of delayed 
payments for services provided. I understand that that issue 
has since been resolved.
    The Phoenix VA hospital has taken back my urology 
appointments now and also in the future. I feel the Phoenix VA 
health care system is improving and correcting some of the 
previous shortfalls. But, I am concerned that the level of care 
for veterans like myself will continue and not repeat some of 
the problems that we have had in the past. There are a lot of 
dedicated employees at the Phoenix VA system, and they are 
starting to see more and more veterans working in the health 
care system.
    I think it is important to continue the Veterans Choice 
card. However, I feel that there are still barriers that 
prevent the veterans from using it. For instance, the language 
states, ``40 miles to the closest VA facility that has a 
primary care physician.'' There are multiple CBOCs here in 
Arizona within those 40 miles. However, they cannot provide all 
the services that are needed for veterans and still have to 
travel great distances for care to the local VA hospitals. 
Sometimes this can be over 200 miles here in Arizona.
    I understand no system is perfect and a lot of these 
programs are new. But, I think it is important that we veterans 
keep the Choice card for an added insurance policy for our 
earned and deserved health care from our government.
    Us Vietnam veterans, we say, never will one generation 
leave behind another generation. Thank you.
    [The prepared statement of Mr. Byers follows:]
        Prepared Statement of Charles G. Byers, Vietnam Veteran

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    The Chairman. Thank you, Mr. Byers.
    Dr. Mitchell?

 STATEMENT OF KATHERINE MITCHELL, M.D., FORMER EMPLOYEE OF THE 
                 PHOENIX VA HEALTH CARE SYSTEM

    Dr. Mitchell. I am deeply grateful for the opportunity to 
testify today. I am a former VA nurse and current VA physician 
with over 16 years' experience working within the Phoenix VA. A 
little over 1 year ago, I transferred from the Phoenix VA to 
the VA network office in Gilbert, AZ. However, I have 
maintained my Phoenix VA contacts.
    In April 2014, following in the steps of Dr. Sam Foote, I 
became a public whistleblower to report dangerous ER nursing 
triage, ER staffing shortages, whistleblower retaliation, and 
facility scheduling violations, among other issues.
    In my opinion, not much has changed with these issues since 
that time, except the scheduling rules are now being followed 
and there are certainly more staff in the ER.
    Throughout the last 20 months, Phoenix VA employees have 
privately contacted me to describe instances of poor patient 
care, delays in care, violations of policy, and retaliation for 
reporting problems. I was also made aware of significant 
problems for patients scheduling appointments through the 
Choice program.
    Although I continue to advocate for improvements within the 
Phoenix VA ER, in my current position, I have been told that I 
am not allowed to address issues that are still there. The 
continued presence of dangerous triage conditions in the 
Phoenix VA ER, as well as problems in the mental health clinic 
triage, were substantiated in a VA Office of Medical Inspector 
(OMI) report that was released internally to the national VA in 
March of this year and publicly released in September by the 
Office of Special Counsel.
    This official VA report called the Phoenix ER nursing 
triage ``a significant risk to public health and safety.''
    Although there were serious flaws in the OMI investigation, 
it still found many problems, including grossly inadequate 
nursing triage, nurses who failed to perform EKGs when ordered 
and failed to act upon orders for serious patient complaints 
such as chest pain. The triage in the walk-in mental health 
clinic was substandard and nursing triage protocols were called 
inadequate.
    After this OMI report's internal release to the VA in 
March, the Phoenix VA ER nurses were trained in a triage tool 
called Emergency Severity Index, or ESI. Unfortunately, while 
ESI is a valuable adjunct to triage care, ESI training does not 
teach triage symptom recognition nor imply a mastery of triage 
skill. In fact, the ESI fits on this small slip of paper and 
consists of only six questions.
    Watching the news, in my opinion, the Phoenix VA has misled 
the public into believing that ESI training resolved the safety 
deficits in triage. Problems, however, are still reported to me 
by Phoenix VA ER staff.
    Despite my formal recommendation, there has been no in-
depth, standardized nursing triage training that would give the 
nurses the broad knowledge base needed to effectively evaluate 
patient symptoms. There are still no minimum qualifications to 
be a triage nurse.
    Nurses who jeopardize patient safety by not following 
patient care orders are still working in the ER.
    I have been told that there have been additional episodes 
of unstable patients escaping from the Phoenix VA ER since 
February 2015.
    Ill patients still wait too long, greater than 6 hours to 
be seen. The ER continues to be flooded.
    An email series just last week stated that all rooms were 
full and there were 30 people waiting in the waiting room. This 
email series also reported other conditions that were described 
in the email as ``a recipe for disaster.''
    I also remain extremely concerned about delays for consult 
care and appointments. I have encountered recent cases in the 
spring and summer where the failure to receive a timely VA 
appointment or consult may have contributed to a veteran death 
or, at a minimum, taken away quality-of-life before the veteran 
died.
    I am prepared to discuss some of these incidents today with 
the Committee, if it so chooses.
    Since the VA scandal erupted, there has been no significant 
change in the dysfunctional institutional culture there. 
Several of the offending senior administrators have voluntarily 
left the Phoenix VA without ever facing any consequences for 
their retaliatory behavior. Other unscrupulous Phoenix VA 
administrators and supervisors remain in positions of power.
    In fact, one administrator remains in a key leadership 
position although he has caused problems in several areas. 
According to a 2014 VA Office of Accountability and Review 
investigation, this same administrator retaliated against a 
whistleblower.
    Because your committee monitors the entire VA, I want to 
make you aware that the issues of which I speak are not only at 
Phoenix but potentially across the Nation. The national VA has 
never established standardized nurse triage training nor 
developed standardize nursing triage protocols, even though 
such training and protocols are readily available in the 
private sector at low cost or free.
    Whistleblower retaliation is rampant throughout the VA. 
Retaliation against physician whistleblowers has driven 
physicians out of the Phoenix VA specifically and elsewhere, 
which is discouraging others from applying.
    Because of time limits for this opening statement, I cannot 
go into detail regarding multiple other issues, including the 
dangerous design of the new ER that is obsolete even before it 
is built, gross difficulties with telephone access within the 
Phoenix VA, lack of digital faxes needed to avoid delays in 
record receiving, and the inappropriate switching of consults 
type without the ordering provider's approval.
    I must say that I am grateful to the many dedicated Phoenix 
VA staff both in and outside the Phoenix ER who have brought 
forward the issues of which I have spoken today. The Phoenix VA 
has the potential to be a stellar VA facility, because of the 
staff, but desperately needs your help to achieve this goal. 
Thank you.
    [The prepared statement of Dr. Mitchell follows:]
  Prepared Statement of Dr. Katherine L. Mitchell, Former Employee of 
                     Phoenix VA Health Care System

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    The Chairman. Thank you, Dr. Mitchell.
    I believe we are still waiting on Ms. Morris. If she 
arrives, you can please let her know that she can join the 
witness panel. We will submit her written testimony, which I 
have read, for the record for this hearing.
    Now, what we would like to do is begin with some 
questioning of the witnesses to have a discussion of these 
issues. Out of respect for my colleagues from Arizona, I will 
defer my questions until after they begin. We will begin with 
Senator John McCain.
    Senator McCain. Thank you, Dr. Mitchell. Would you pull 
that a little bit closer so that we can hear you a little 
better? Thank you.
    Dr. Mitchell, you have watched the evolution of events, 
legislation, the Choice card, and all of that since the 
beginning of the terrible scandal here at the Phoenix VA, as we 
all know. What would you say has been the degree of progress or 
lack of progress since that happened?
    Dr. Mitchell. The VA has made progress. It was so far down 
in the hole as far as being behind in its ability to care for 
patients that any improvements are greatly welcomed. However, 
there are still too many patients waiting to be seen.
    It is very difficult to get appointments through the Choice 
program, now patients are no longer delayed waiting on the 
Phoenix VA waitlist, now they are delayed waiting on a Choice 
waitlist either through problems or difficulty reaching them.
    There certainly has been more staffing across the board--
physicians and other ancillary service personnel--so that is an 
improvement. However, there is still incredible difficulty 
getting things scheduled in the VA. Consults that are needed 
are delayed because they do not have adequate providers.
    Senator McCain. I do not often talk about my own 
involvement, but I negotiated with Senator Sanders for the VA 
reform legislation that was passed overwhelmingly by both 
houses of Congress. I wanted a Choice card for everybody, no 
matter what. In the negotiations, I had to agree to the 40-mile 
distance or time on waiting list.
    Do you believe that we should go back over the criteria 
with the Choice card and make it available for every veteran, 
no matter where they are geographically located or any amount 
of wait time?
    Dr. Mitchell. I think the Choice card is a great idea, 
especially for specialists for which the Phoenix VA and other 
VA's are short-staffed, and for which there are considerable 
delays in care.
    The VA infrastructure is incredibly good. Although I am 
talking about the cracks in the VA care, the actual VA 
nationwide has millions of high-quality episodes in patient 
care every single year. The veterans who are able to get into 
the system, in general, are very happy with the care, and they 
get better care than they would in the community.
    I do think that the Choice program needs to be restructured 
because veterans are still waiting, and whatever structure 
changes can be made to decrease the wait are important.
    The other thing is that you need to look at the 
reimbursement for Choice providers. Part of the problem is not 
the fact that Choice cannot make appointments. It is that 
Choice cannot make appointments because they do not have 
providers signing up. The Choice reimbursement is much lower 
than the payments for non-VA care under other programs, and 
lower than Medicare. That should not be the case.
    Senator McCain. Mr. Byers, do you have a view on the Choice 
card?
    Mr. Byers. Yes, I actually concur, that we keep the Choice 
card and again remove some of those barriers that veterans are 
having difficulty with, and some of the language. The language 
is still not very clear to a lot of the veterans that we see.
    When it works, it works well. I can say that because I used 
the Choice card with TriWest, and they were able to get me a 
provider that provided the services for me. Yet, I still feel 
that we should have the Choice card. It is an insurance policy 
for us veterans. I think it is important that we keep it.
    Senator McCain. Well, I thank you both for being here.
    Dr. Mitchell, we will continue to rely on you.
    I guess just one final question to Dr. Mitchell. Maybe this 
is not a fair question, but I feel compelled to ask it. Would 
you go to the Phoenix VA emergency room for care?
    Dr. Mitchell. Absolutely not. There is a reason for that. 
There are physicians in that ER that are the best in the State 
of Arizona. There are nurses that fill that ER who are the most 
professional I have ever worked with. The problem is that you 
have to get past nursing triage, and you have to get past the 
flood of patients.
    Right now, the Phoenix VA health care system does not have 
a good way of dealing with urgent care patients, patients who 
do not need emergency care but certainly have issues that 
cannot wait until the next business day or the third business 
day or whenever the clinics can schedule them. As a result, you 
have a whole pool of people bearing down on this very small 
emergency room which dilutes getting care to people who are 
really sick, as opposed to getting care to people who can just 
wait.
    There is no standardized triage training. Without that, it 
is the luck of the draw if you have a triage nurse who knows 
what they are doing.
    Frankly, in my particular case, the nurses who retaliated 
against me by impeding my care for ill patients, most of them 
still work in the ER, and I do not trust their professionalism 
not to impede my care.
    Senator McCain. Thank you.
    Mr. Chairman, I think I would like to just add a comment 
for the record.
    We are deeply concerned, or we would not be having these 
hearings, we would not be passing legislation to try to fix it.
    On Veterans Day, after the parade, I went down to Phoenix 
VA and people who are in the hospital there are well-treated. 
We do have many dedicated people who are working there. There 
has been some improvement.
    Having said that, I think we should give credit to a lot of 
the outstanding men and women who are serving there. I think 
fundamental changes still have to be made in order to allow 
these dedicated men and women who are working at the VA to 
exercise their full capabilities. Right now, I do not think 
that is exactly the case.
    If there is one issue I would like for us to continue, 
which you and I and Senator Flake have had numerous 
conversations with Chairman Isakson, is to make the Choice card 
completely available.
    I thank the witnesses.
    The Chairman. Thank you, Senator McCain.
    Senator Flake?
    Senator Flake. Thank you.
    Mr. Byers, just to get an idea of how things have improved 
or have not improved, if you were to arrive today just like you 
did a few years ago from New Jersey, not knowing what you know 
now about how to navigate through the system, how long do you 
think your wait time would be for the same issues and needs 
that you had? What would be the change today from what it was 
before?
    Mr. Byers. I can answer that because I deal with a lot of 
veterans who come to me for eligibility and they need to get 
into the VA health care system.
    They go through eligibility and at least within 30 days 
they are assigned a primary care doctor. That is what the 
appointment says, and that is where they go.
    Senator Flake. That would have taken how long when you got 
here?
    Mr. Byers. I got here in August and I saw a doctor in 
November, but I was told it would be almost a year before I 
could even see a primary care doctor.
    For the veterans today, at least in my CBOC, here in 
Gilbert, the eligibility works very well. If you are in the 
system, they can get you a primary care doctor within 30 days.
    Now the problem is that you have a primary care doctor, but 
if you need any kind of specialty care or anything else that 
you have to have, that is where the bog-down occurs. I have 
some people who have to wait 6 months for an appointment.
    Senator Flake. Thank you.
    I should have mentioned in my opening statement, like 
Senator McCain, I appreciate what the city of Gilbert does, the 
programs that they have and the effort that they make to make 
sure that veterans here are treated well and receive the care 
that they can.
    Dr. Mitchell, you mentioned that the culture has not 
changed at the VA. What will it take to have a change in 
culture? Is that a decades' long process? How can we expedite 
that to make sure it changes faster?
    Dr. Mitchell. In my opinion, the Central Office has the 
ability to stop whistleblower retaliation today. They just have 
not sent out the memo that specifically states the penalty for 
whistleblower retaliation.
    For example, there is a significant amount of retaliation 
against physicians. There are sham professional standards 
boards, basically peer reviews where they say the physician is 
incompetent when they are not. These boards are held without 
notifying the physician of the accusations, without giving them 
access to the patient records, without having an impartial 
board given.
    Then, the ``not impartial'' board makes a finding, says the 
physician is incompetent, and either fires them or fires them 
and reports them to their professional standards board. There 
are very clear policies about how professional standards boards 
are supposed to be done.
    In the community, they are done only when there are there 
serious concerns that a physician is incompetent. I know of 
seven physicians in the VA system, either current or former, 
who have either undergone these sham peer reviews or are 
currently undergoing them. VA administrators have not followed 
the rules in each particular case.
    All Central Office has to do, all the Under Secretary has 
to do, is send out a memo that says, at this point, all 
professional standards board reviews are to be on hold until 
you get the memo that is coming in 10 days. In that memo, we 
are going to specify that the rules need to be followed. 
Whatever findings your boards have, they have to be verified by 
an independent third party.
    I think that is important because there are physicians who 
do not practice quality of care that need to be covered. Right 
now, it is a tool for retaliation. It is not considered a 
prohibited personnel practice, so the Office of Special Counsel 
will not get involved.
    Because Phoenix administrators and administrators elsewhere 
have retaliated against physicians--this is becoming well known 
in the community--physicians are not applying for the jobs we 
desperately need them for. The Central Office needs to come 
through. It needs to declare that it stops today, and then give 
teeth to it so that every chief of staff, every service chief 
who is involved in a sham peer review is held accountable 
immediately instead of just letting the physician fight on 
their own, which can take years and can be financially and 
professionally devastating to the physician.
    Senator Flake. Thank you, Senator Sullivan.
    The Chairman. Thank you, Senator Flake.
    Mr. Byers, I wanted to follow up on a couple questions.
    Can you explain a little bit about the handoff when you 
went from New Jersey to Arizona. I am sure that is obviously 
common for a lot of veterans to be moving. How did that work?
    Mr. Byers. From New Jersey, you mean?
    The Chairman. Leaving New Jersey. I know this is a 
beautiful State, so a lot of veterans are coming here, just 
like my great State of Alaska.
    So, how does that work in terms of the handoff, in terms of 
the ability to just track veterans from one VA center to 
another? Are there lessons that you learned that we could focus 
on that could help improve that handoff?
    Mr. Byers. I think it should be seamless. OK, you are in a 
VA----
    The Chairman. Was yours seamless?
    Mr. Byers. No. It was not. It was seamless for me to 
contact and work with the Philadelphia VA while I was here 
because I used My HealtheVet. My HealtheVet is a tool that we 
veterans can use to contact our primary care physicians, we can 
instant message them and be able to talk.
    But, when they do not see you, or they cannot, they cannot 
prescribe medication. So, the medication was the main issue for 
me for that. That is why it was important for me to get a 
primary care physician.
    I had the eligibility. I am priority one. I should not have 
any problems whatsoever going into the VA health care system. 
But the wait time, because they did not have a primary care 
doctor, that was the problem. That was not seamless at all.
    Then when you get into the VA system, they do not seem to 
be talking to one another.
    I understand that we have this great computer system, this 
CAPRI system, where everybody should be able to look at the 
medical records and see. It took quite a while for that to get 
transferred here to the Phoenix system. I am sure that that 
process, hopefully, has been improved.
    The VA should be portable. It should be portable. If I have 
to go somewhere, I am in the VA health care system, I should be 
able to use it anywhere.
    The Chairman. Another element about your testimony focuses 
on the delays--obviously, that is something that the Choice Act 
was focused on addressing is these lengthy delays.
    In your written testimony, you noted that you waited over a 
year for your urology appointment. Did it actually take a year 
or did something intervene?
    Mr. Byers. I requested a urological appointment because I 
had to follow up. This is what the Phoenix VA said when I came 
to Phoenix, to please follow up.
    So, I went to my primary care doctor. As we talked, I said 
I would like to have a referral for urology. I do not know at 
that time if urology was taking referrals. My understanding is 
that the urology department at the Phoenix VA were very, very 
thin. I understand there was probably one urologist at that 
time, and he was retiring. He was not taking any new patients.
    I stayed in the process until finally I complained. How I 
had to complain? I had to change my primary care doctor. I 
changed my primary care doctor. I got a new doctor. Probably in 
all that time with all of what was happening here with the 
Phoenix VA, that is when the referral went out, and I got my 
TriWest appointment.
    The Chairman. So, initially, they told you 1 year. You 
complained, and it took how long to get that appointment?
    Mr. Byers. It took me over a year to get my urological 
appointment.
    The Chairman. I hope the panelists on our next panel are 
listening to all of these incidences, because I think that a 
lot of the explanations have to come from the officials, 
whether at TriWest or the VA, on why 1.5 years after the Choice 
Act, we still have veterans who are waiting a year--a year--for 
an appointment. It is unbelievable.
    Mr. Byers. Senator Sullivan, this was before the Choice 
Act.
    The Chairman. Let me turn to Dr. Mitchell. I want to follow 
up on Senator Flake's comments about changing the culture.
    Senator McCain mentioned, and I think we all agree, that 
the VA has many, many great employees who are very dedicated at 
the hospitals throughout the country. But, your written 
testimony actually ends by saying you do not think the culture 
has moved in terms of addressing it almost at all.
    If you had a magic wand to address not only the facilities 
that you are familiar with here in Arizona, but the VA more 
broadly, how would you focus on starting to address the culture 
that you are still saying has not really moved a bit in terms 
of being able to address some of the huge systemic problems we 
have in the VA?
    Dr. Mitchell. I would make sure that everyone sees the 
consequences for whistleblower retaliation. Frankly, any leader 
who has been confirmed to have done whistleblower retaliation 
through an OSC investigation or an Office of Accountability 
investigation needs to be removed.
    Right now, Senior Executive Service are held to a different 
standard of behavior than the rest of the frontline employees. 
The frontline employees are grossly aware of that. Things that 
senior administrators do and get away with are things that 
frontline employees would be fired for immediately on the spot. 
That needs to change.
    It is not that there is a lack of people who are really 
good and dedicated to the VA, you are right. It is a problem 
that there are a few in positions of leadership who are making 
bad decisions for the entire VA.
    I am appalled at the lack of accountability for leadership. 
Frankly, I am really disappointed in the Central Office, that 
they have not come down and truly held--Senior Executive 
Service, they should be held to a higher standard of behavior 
than the rest of us.
    I would also like to state, although the Senior Executive 
Service, I certainly have known several that were less than 
stellar, there is one, Lisa Freeman out of Palo Alto, who 
rotated to the VISN office where I worked; she embodies some of 
the best characteristics of the Senior Executive Service I have 
ever met. The Central VA Office needs to take recognition of 
leaders like her and have them train the newest leaders coming 
up.
    The Chairman. Let me ask you two follow up questions that 
relate to culture. You mentioned it. Senator McCain mentioned 
that the Choice Act does provide the Secretary of the VA with 
significant authority to remove officials who have 
underperformed or performed in a way that should require their 
termination. Do you think that the VA is actually doing that or 
utilizing that authority? Is that a way in which to help change 
the culture, to hold more officials accountable?
    Dr. Mitchell. I do not think the VA is investigating the 
issues of retaliation seriously enough. In my particular 
instance, there was an Office of Accountability review 
investigation. I was interviewed last.
    The team refused to interview any of my physician 
witnesses, which could describe clearly multiple episodes of 
retaliation. The administrator who was involved was found 
guilty of retaliation in one instance when actually he was 
guilty of retaliation in multiple instances that not only 
showed a lack of leadership skills but showed a lack of basic 
medical ethics.
    Someone who refuses to investigate when six physicians tell 
him nurses are impeding care for ill veterans in the ER does 
not need to be in a leadership position, as he lacks basic 
medical ethics.
    The Chairman. What about the issue of funding? Since the 
implementation, since the passage of the Choice Act, the VA has 
actually received an additional $15 billion to implement this 
new law on top of significant increases in the VA's budget over 
the last several years. Do you believe it is a lack of funding 
for the VA? Or is it another issue?
    Some say it is a lack of funding. Others have actually said 
that might even be the problem, in terms of thinking the budget 
has been dramatically increased.
    How do you believe that the funding issue, either too 
little or too much, relates to changing the culture?
    Dr. Mitchell. I think that the funding issue is part of the 
problem with the VA, but certainly not the entire problem.
    The Chairman. Meaning that they are underfunded?
    Dr. Mitchell. That they are underfunded. The VA provides 
tremendous high-quality care. Every time we provide high-
quality care to the veteran, it attracts another veteran.
    Frankly, even in the ER, when they were able to get 
additional staffing to be able to care for veterans, once they 
had more staffing, more veterans came. It is the same across 
the Nation. There has been a 10 percent increase in 
appointments.
    I do not think the public realizes how big the medical 
needs are for the veteran population.
    What I do think needs to be done also is that some of the 
funding needs to be better managed. I, like other people, have 
listened to the media reports, where I find that funding is 
being spent on public relations that it should not be or other 
issues. To give any more detailed answer, I am not qualified, 
because this issue is too complex.
    I do think there needs to be an expert panel looking at it, 
and a panel not of VA employees, but of outside people, such as 
Secretary McDonald gathering a panel to look at issues. I think 
that those would be invaluable to seeing where the improvements 
need to be made.
    The Chairman. Thank you.
    Ms. Morris, welcome. We are glad you are here. We would 
welcome the opportunity to hear your testimony. Please keep it 
to 5 minutes, then we will also have a few questions for you. 
So, welcome.

         STATEMENT OF NICOLE MORRIS, U.S. NAVY VETERAN

    Ms. Morris. Thank you. My name is Nicole Morris. I am a 
Navy veteran. I served overseas in Kuwait in 2004. When I came 
home, I was told I was eligible for VA benefits.
    My first experience was a positive experience. There was a 
procedure that I needed done, which they did not do at the VA. 
They were able to get me to a civilian doctor and have the 
surgery paid for. So, it was a very positive experience.
    However, a few years later, I was experience excruciating 
stomach pains. I did not have any other medical coverage. I 
went to the ER at the facility downtown at the VA, and I waited 
for 2 days in the ER to be seen.
    The first day, I waited until about 1 in the morning. I was 
told I was not going to be seen anytime soon. Then I went home 
and came back. It was probably around 11 o'clock at night when 
I was finally seen.
    When I was seen, it was very brief. They saw me in the back 
room for about 5 minutes, gave me some pain medicine, and told 
me to go on my way. There was not really an exam of what was 
going on with me physically. There was no follow-up. I was just 
given pain medication and told to go home.
    There were other veterans in the ER at the time waiting 
that had more serious problems. I talked to some of the 
veterans who had strokes, seizures, who were waiting in the ER 
for a very long time.
    I was told there was a priority list. It was not first 
come, first serve, but there was a priority list and I was down 
at the bottom of that priority list.
    After that experience, I did not want to go back to the VA. 
I am a single mom. I am a student. I do not have any other 
health coverage. It was very disheartening for me.
    I often have to pay out-of-pocket. If I have to go to the 
doctors, I have to pay hundreds of dollars out-of-pocket to go 
somewhere, to the urgent care, if I am sick.
    I have tried scheduling appointments. I no longer have a 
primary care physician. I never saw my primary care physician. 
It takes a month, 2 months to get in, if I want to.
    It is just very disheartening. It is very stressful to try 
to get an appointment. I am on the phone a long time waiting to 
get an appointment.
    I have been talking to fellow veterans, and they share the 
same stories.
    I appreciate having the VA coverage. I really do. I am 
thankful for it. But, I think that there are big improvements 
that could be done so I can be seen, I do not have to pay out-
of-pocket, and that my fellow veterans can be seen as well.
    [The prepared statement of Ms. Morris follows:]
           Prepared Statement of Nicole Morris, Navy Veteran
    Good morning. My name is Nicole Morris. I am a Navy veteran who 
deployed to Kuwait in 2004 for Operation Iraqi Freedom. Immediately 
after leaving active duty, I was told I was eligible for VA health 
care. I needed to see a doctor and the VA actually referred me out to 
the private sector and paid the bill. It was a pretty positive 
experience. However, several years later and I was still eligible for 
VA health care and was experiencing severe stomach pains. I went to the 
VA emergency room at Phoenix at 8:30 a.m. and waited for someone to see 
me. Hours and hours went by without me being able to see a doctor. I 
ended up leaving that night because it was clear I wouldn't be seen by 
anyone. I came back the next day and ended up waiting again until 10 
p.m. I was finally seen however it was extremely brief and I was not 
given the proper medical checkup to determine the issue. I was issued 
pain meds and released without knowing what my medical issue was.
    There were other times I tried unsuccessfully to get appointments 
through the VA. It was always a hassle. Most of the appointments would 
be offered one to two months in the future. I'm not sure why I am 
supposed to stay sick for two months while waiting for a doctor to be 
available. Other times I would call and be put on hold for 30 to 45 
minutes or more.
    Another massive inconvenience was the policy that female veterans 
who needed specific health care specialists could only be seen on 
Wednesdays. I'm not sure who made that policy but it doesn't make sense 
to be the VA and only see female veterans one day a week. I work and go 
to school and also take care of my child and the VA's scheduling just 
does not meet my needs.
    I also have a close friend from my unit who has more serious 
complications from our deployment than me. She also cannot get seen by 
the VA for her conditions and it is extremely frustrating and 
disappointing to hear how she struggles and how the VA is failing to 
take care of her.
    I am sure the VA does provide for some military servicemembers' 
medical needs. But for me it just doesn't fit. It would be ideal for 
veterans like me to just have regular insurance that others have such 
as military retirees who are allowed to use TRICARE. That way I could 
call the doctor I choose when I am sick to schedule my appointment and 
not have to work through the VA. It would also help if my son/daughter 
and I could be covered on the same insurance policy.
    Thank you for allowing me to share my experiences with the VA 
today. I hope that this will lead to reforms of the current system and 
improved care for those of us that served.

    The Chairman. Thank you very much for that testimony, and 
thank you for your service. I will ask Senator McCain or 
Senator Flake if they have any questions for Ms. Morris.
    Senator Flake. During that emergency room visit, I cannot 
imagine being there 2 days with just an intervening short time 
at home. What was said during that time? Did they come out and 
check on you?
    Ms. Morris. Not at all, no. I often checked in with them.
    Senator Flake. There were others in the same condition or 
similar condition?
    Ms. Morris. Worse. There was a gentleman who had a stroke, 
a mild stroke, who I was sitting next to. He was there with his 
wife.
    Senator Flake. Did it seem to be just too few personnel 
there? What seemed to be the issue, that you could tell?
    Ms. Morris. I do not know. I do not know.
    Senator Flake. Dr. Mitchell, is that typical of some of 
what you have talked about?
    Dr. Mitchell. Yes. What happens is that there is a priority 
list, so the sickest patients are supposed to be seen first. 
However, that depends on if the triage nurse is skilled enough 
to actually elicit the appropriate symptoms. If not, then you 
are not put in the correct order and priority, and you wait 
longer than you should.
    There have been instances, which I have reported through 
the VISN office, the network office, even this year where 
strokes were being delayed in being evaluated, which there is 
this specific stroke protocol and that should never happen. 
There were strokes that the nurse did not recognize as a 
stroke. There were strokes where a physician did not recognize 
it is a stroke, and the veteran was sent home only to return 3 
days later with an inability to walk, a loss of vision, and 
having to be sent out to another facility that handles strokes.
    The other problem is that the ER is physically very small. 
Originally, it was 11 beds, eight rooms. Now they have 
expanded, so there are 22 rooms, but there are still only 
approximately eight beds that have cardiac monitoring 
abilities. So, if the facility is backed up as far as 
admissions, then those patients have to be held in the ER, and 
then everything else gets backed up.
    The facility does not allow us to close the ER, or at least 
it did not during the time I was there for 10 years. That means 
that although you can go on diversion and no ambulances show 
up, it does not stop very ill patients from coming to the ER. 
If they come to your ER and you do not have the capacity to 
care for the ill patient, our facility, at least at the time I 
was there, did not allow you to send them to another ER where 
they could get care quicker.
    That is an issue that needs to be addressed because there 
are ill patients.
    When you hear from panel two, you are going to hear a lot 
of really good statistics, and the statistics are good in some 
areas. But, there are certain things they are not going to want 
to mention. One of them is the greater than 6-hour waits in the 
ER. Those are calculated on a daily basis. Another thing that 
they are not going to want to mention are the extreme delays 
for non-VA care consults, which are outside the VA, that are 
greater than 90 days, and also the consult delays that are 
inside the VA that are greater than 90 days. Those numbers are 
huge. They are huge across the Nation. The VA is trying to 
figure out how to close them all and get people the appropriate 
care.
    You are also not going to hear about statistics like the 
all-employee survey where the Phoenix VA was in the dumps, as 
far as confidence in leadership and psychological safety, which 
all play into fear of retaliation.
    There are some serious problems in the ER that need to be 
addressed. There needs to be a way of managing these urgent 
care patients so that they get seen as well as the sickest 
patients.
    Right now, you are ethically obligated to see the most sick 
patients. You rely on your triage nurse to be able to identify 
the sickest patients. If they make a mistake, then sick 
patients wait too long while their conditions deteriorate.
    That has been an ongoing problem since I was there in 2003. 
It just got worse when our intake numbers increased.
    Senator Flake. Thank you.
    The Chairman. Ms. Morris, I had a question relating to your 
testimony where you talked about the limited hours available to 
receive gender-specific health care as a huge inconvenience for 
veterans. Can you talk a little bit more about that, your 
experience, and what you would recommend try to fix that?
    Ms. Morris. Sure. For years, the Well Women's Clinic has 
only been open on a Wednesday. Once again, it was very hard to 
get into that, if I needed something right away. I would have 
to wait a month, 2 months.
    Just recently, they actually changed it so the primary care 
physician can do the Well Women checkups, if they are 
designated to. However, they have to be accepting new patients 
in their network, they have to be your primary care physician, 
so not every woman probably has a primary care physician who 
can provide that service. Otherwise, you would have to wait on 
a Wednesday to receive that service. The waiting list is long.
    I think the recent change is a step in the right direction 
to enable the primary care physician to give those services. 
Maybe if we could open it up so it is not just on Wednesdays at 
the VA downtown, that would be a good suggestion as well, as I 
cannot get in to see my primary care physician, because right 
now they are only there on Wednesdays.
    The Chairman. Great. I want to thank the panelists very 
much. I want to thank you all for your service to our country, 
and, Dr. Mitchell, to the VA.
    We will take a brief recess to move from panel number 1. I 
want to invite the witnesses for the second panel to please 
come to the witness table. Thank you again. [Recess.]
    The Chairman. I want to welcome the second panel. The 
second panel will consist of Dr. David Shulkin, who is the 
Under Secretary for Health at the Department of Veterans 
Affairs. He is accompanied by Dr. Thomas Lynch, the Assistant 
Deputy Under Secretary for Clinical Health, and Ms. Kathleen 
Fogarty, Acting Director, Veterans Integrated Service Network 
(VISN) 18: Southwest Health Care Network.
    We also have Dr. David McIntyre, Jr., who is the President 
and CEO of TriWest Healthcare.
    Dr. Shulkin?

   STATEMENT OF DAVID J. SHULKIN, M.D., UNDER SECRETARY FOR 
  HEALTH, U.S. DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY 
THOMAS LYNCH, M.D., ASSISTANT DEPUTY UNDER SECRETARY FOR HEALTH 
 CLINICAL OPERATIONS; AND KATHLEEN FOGARTY, INTERIM DIRECTOR, 
             VISN 18: SOUTHWEST HEALTH CARE NETWORK

    Dr. Shulkin. Good morning, Senator Sullivan, Senator 
McCain, Senator Flake. Thank you for the opportunity to discuss 
the improvement of access to and the timeliness of veterans' 
health care in the Phoenix VA health care system.
    As you mentioned, Senator Sullivan, I am accompanied by Dr. 
Thomas Lynch to my left, who is the Assistant Deputy Under 
Secretary for clinical operations at VA, and Ms. Kathleen 
Fogarty, who is acting director of the VISN here in the Phoenix 
region.
    I would like to thank Mr. Byers and Ms. Morris, for their 
service to the country and for their testimony today. I would 
also like to thank Dr. Mitchell for her testimony. We must 
depend on our employees to be vigilant about potential sources 
of harm to our patients and to voice their concerns, if patient 
safety is at risk, and they need to feel safe in doing so.
    In September 2014, the GAO issued its report on managing 
the oversight of the consult process. VA concurred with all six 
recommendations and is taking actions to address the concerns 
raised by the GAO.
    During this past year, VHA completed a national assessment 
of progress note completion and created the technical 
capability to assess and complete consults. Solutions were 
implemented by extensive national consult training within all 
the VISNs, weekly national consult calls, and the creation of a 
consult training module.
    In October of this year, VA's OIG Office of Health Care 
Inspections delivered its evaluation of access to care concerns 
in the urology service here in Phoenix. It was determined that 
Phoenix suffered a significant urology staffing shortage, and 
its leaders did not have a plan to provide urological services 
during that shortage of providers.
    To fill this need, VHA has hired six new urology employees 
since January 2013. As of December 7 of this year, the urology 
service had no patients waiting on its electronic waitlist. It 
had three consults waiting greater than 90 days. All three of 
those have now scheduled appointments. Now 99 percent of new 
patients are seen within 30 days.
    Appointment volume doubled from the previous year, while 
the average wait time from the preferred date was at 3 days, 8 
days lower than it was 1 year ago. Urgent care appointments in 
urology are available the same day.
    VHA's efforts to issue disciplinary actions in Phoenix and 
to resolve the administrative leave status of two employees 
have been delayed by our inability to interview witnesses who 
have not been cleared by the U.S. Attorney's Office, and only 
recently were we given additional evidence by the VA OIG that 
we had been requesting for the last several months.
    Until we have reviewed all of that relevant new evidence 
that we received, we have been unable to make a determination 
on what disciplinary action may be warranted related to the 
patient scheduling waitlist issues. These employees are going 
to remain on administrative leave.
    VA has reached expedited settlements with the Office of 
Special Counsel on the whistleblower retaliation allegations 
made by three employees at the facility. Since some of the 
subject officials in these retaliation cases are the same as 
those in the patient scheduling wait time case, we have not 
issued disciplinary actions related to these retaliation 
allegations.
    VHA is taking a number of actions in response to the events 
in Phoenix, such as: building partnerships with care in the 
community providers; reducing wait times; holding a national 
stand down for access this past November; and adding over 630 
full-time equivalent employees to the medical center.
    In November 2014, the former medical center director was 
terminated. On October 20, 2015, Ms. Deborah Amdur was 
appointed as the permanent director. Today is actually her 
first day.
    VHA is continually monitoring wait times and making 
adjustments as needed to ensure that veterans have access to 
the best care they rightly deserve.
    During fiscal year 2015, Phoenix VA increased completed 
primary care appointments by 7.72 percent, mental health 
appointments by 18.38 percent, and specialty care by 15.25 
percent. During this period, Phoenix completed over 680,000 
outpatient appointments. Overall, the Phoenix VA has completed 
95 percent of all patient care appointments in fiscal year 2015 
within 30 days of the date the veteran preferred and the 
average wait time for all patients in primary care has 
decreased to 6 days, as of December 7 of this year.
    The average wait time for all patients in specialty care is 
9.1 days, mental health 4.8 days, and urology 3 days.
    On November 14, 2015, VA medical centers across the 
country, including Phoenix, participated in the first national 
access stand down. Prior to this stand down, there were 1,650 
open priority one level consults at Phoenix open greater than 
90 days. After this stand down, there were just 91 priority 
consults that still needed to be addressed and were authorized 
for care in the community.
    I should say most of those we have been unable to contact. 
That is why there are 91 still left open.
    Although the intent of this effort was to reach those 
veterans with the most urgent care needs, we will not rest 
until we fix our system in order to better serve the health 
needs of all veterans.
    VHA is also improving access through extended hours into 
the evenings and weekends to leverage limited space and enhance 
convenience for veterans. Designated patient care teams perform 
extended hours on a rotational basis.
    In October 2015, VHA delivered the new Veterans Choice 
program to Congress, proposing improvements for health care 
delivery to veterans. The plan addresses enhanced partnerships 
between VA and community providers to deliver care in the 
community more seamlessly. With the new Veterans Choice plan, 
enrolled veterans will have greater choice and ease in use of 
access to health care services at VA facilities in the 
community.
    Through September 2015, contractors have added over 9,100 
Choice authorizations for approximately 7,200 veterans in 
Phoenix. Additionally, the Phoenix VA created nearly 43,000 
authorizations to veterans to receive care in the private 
sector between October 1, 2014, and September 30, 2015, a 45 
percent increase in authorizations when compared to the 
previous year.
    The VA is committed to providing the highest quality care 
to our veterans who have earned and deserve this care. Our work 
to effectively and timely treat veterans continues to be a top 
priority at the Phoenix VA health system and throughout VHA.
    We really appreciate Congress' support and look forward to 
answering any questions you may have.
    [The prepared statement of Dr. Shulkin follows:]
   Prepared Statement of David J. Shulkin, M.D., Under Secretary for 
  Health, Veterans Health Administration, U.S. Department of Veterans 
                                Affairs
    Good morning, Senator Sullivan, Senator McCain, and Senator Flake. 
Thank you for the opportunity to discuss this important topic regarding 
the improvement of access to and timeliness of Veterans' health care at 
the Phoenix VA Health Care System (PVAHCS). I am accompanied by Dr. 
Thomas Lynch, Assistant Deputy Under Secretary for Health for Clinical 
Operations, Kathleen Fogarty, Acting Director, Veterans Integrated 
Service Network (VISN) 18, and Dr. Darren Deering, PVAHCS Chief of 
Staff.
                                 pvahcs
    The Veterans Health Administration's (VHA) mission is to honor 
America's Veterans by providing exceptional health care that improves 
their health and well-being. By extension, this is also PVAHCS' mission 
and providing timely access to that care is critical. Access enables 
VHA to provide personalized, proactive, patient-driven health care; 
achieve measurable improvements in health outcomes; and align resources 
to deliver sustained value to Veterans.
    VHA has taken a number of actions in response to events in Phoenix, 
such as building partnerships with Care in the Community providers, 
reducing wait times, holding a National Stand Down, and adding over 500 
employees. In November 2014, the former Medical Center Director was 
terminated by VA and on November 20, 2015, Ms. Deborah Amdur was 
appointed as the permanent Director of PVAHCS. As previously mentioned, 
Ms. Kathleen Fogarty serves as the Acting Director for VISN 18 while 
VHA continues to recruit for a new VISN Director.
    VHA is continually monitoring wait times and making adjustments, as 
needed, to ensure that Veterans have access to the best care they 
rightfully deserve. During Fiscal Year (FY) 2015, PVAHCS increased 
completed primary care appointments by 7.72 percent, mental health 
appointments by 18.38 percent, and specialty care by 15.25 percent. 
This means that during this period, PVAHCS completed over 680,600 
outpatient appointments. Through September 2015, the contractors have 
created over 9,100 Choice authorizations for approximately 7,200 
Veterans. Additionally, Phoenix created nearly 43,000 authorizations 
for Veterans to receive care in the private sector from October 1, 2014 
through September 30, 2015--a 45 percent increase in authorizations 
when compared to the same period in previous years. Overall, PVAHCS 
completed 95 percent of all patient appointments in FY 2015 within 30 
days of the date the Veteran preferred and the average wait time for 
all patients in primary care has decreased to 6 days (as of December 7, 
2015). This means that PVAHCS is serving more Veterans and providing 
this service when they need it.
    On November 14, 2015, VA medical centers (VAMC) across the country 
participated in the first ever National Access Stand Down. Prior to 
this Access Stand Down, there were 1,650 open priority level 1consults 
at PVAHCS (as of November 6, 2015). After the Access Stand Down, there 
were 91 priority level 1 consults that still needed to be addressed (as 
of November 16, 2015) and were authorized for care in the community. 
Although the intent of this effort was to reach those Veterans with the 
most urgent needs, we will not rest until we fix our system in order to 
better serve the health needs of those who need our help most.
    PVAHCS opened a new Community-Based Outpatient Clinic (CBOC) in 
northeast Phoenix in May 2015. Additional CBOC locations have been 
identified in southwest and central Phoenix, with both activations 
planned for August 1, 2016, and reassigned specialty care clinic space 
to the second floor of the Community Living Center. Vacated space in 
the Ambulatory Care Center has been reallocated to primary care for 
additional exam rooms and future growth. PVAHCS is also improving 
access through extended clinic hours into evenings and weekends to 
leverage limited space and enhance convenience for Veterans. Designated 
Patient-Aligned Care Teams (PACT) perform extended hours on a 
rotational basis on Saturdays at the main facility and Southeast Clinic 
for a full shift. A limited number of PACTs also provide extended hours 
on Thursdays.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Since January 2014, PVAHCS has seen a net gain of 630 full time 
employee equivalents (FTEE), or an increase of 25.5 percent. As of 
October 2015, PVAHCS increased primary care staffing of physicians, 
nurses, and clerks by 77 additional full-time employees from April 2014 
to present. PVAHCS has approximately 160 FTEE on board, who are funded 
through the Veterans Access, Choice, and Accountability Act (Choice 
Act). The graph above shows a history and foundation for sustained 
high-production hiring for the local Human Resource (HR) office. We are 
confident that PVAHCS leaders are monitoring operations closely and are 
in position to continue making H.R. improvements throughout the 
facility.
                     veterans choice program (vcp)
    Implementation of VCP, established by the Choice Act, has helped 
generate an 87-percent increase in the number of PVAHCS consults going 
out to the community for Veteran care from FY 2014 to FY 2015. PVAHCS 
is located in the same metro area as the TriWest Healthcare Alliance. 
PVAHCS has used this geographic access to develop strong working 
relationships with TriWest leadership and staff. As a result, PVAHCS 
has undertaken initiatives such as actively participating in the 
redesign of the TriWest Portal; enabling streamlined communication of 
records between the agency and vendor for all VAMCs served by TriWest; 
discussing potential new initiatives with TriWest to physically locate 
two to three TriWest staff members within PVAHCS to address Veteran/
vendor issues more promptly; and holding periodic meetings and 
teleconferences between the leadership and staff of PVAHCS and TriWest 
to address issues raised directly from Veterans.
    In October, VHA delivered to Congress a plan for how VA could 
consolidate all purchased care programs into one New Veterans Choice 
Program (New VCP) to deliver care in the community more seamlessly. 
With the New VCP, enrolled Veterans will have greater choice and ease 
of use in access to health care services at VA facilities and in the 
community. The New VCP will clarify eligibility requirements for care 
in the community, build on existing infrastructure to develop a high-
performing network of community providers, streamline clinical and 
administrative processes, and implement a continuum of care to improve 
coordination of services. Clear guidelines, infrastructure, and 
processes to meet VA's community care needs will improve Veterans' 
experience and access to health care. As VA continues to refine its 
health care delivery model and examine how the Veterans Choice Program 
interacts with other VA health programs, we look forward to providing 
more detail on how to convert the principles outlined in the New VCP 
Plan into an executable, fiscally-sustainable future state. In 
addition, we plan to receive and potentially incorporate 
recommendations from the Commission on Care and other stakeholders.
              va office of inspector general (oig) report
    In August 2014, VA OIG published its final report, ``Review of 
Alleged Patient Deaths, Patient Wait Times, and Scheduling Practices, 
the Phoenix VA Health Care System,'' which noted delays in care and 
quality of care concerns. Of the 24 recommendations, OIG agreed to 
close three by the time the report was published and VHA has completed 
action leading to OIG closure on another 15 as of November 25, 2015. 
Six are still in progress. We will continue to focus on rebuilding 
employee commitment and morale and moving forward to provide 
accelerated, timely access to the high-quality health care Veterans 
have earned--when and where they need it.
           u.s. government accountability office (gao) report
    In September 2014, GAO issued its report, ``Management and 
Oversight of Consult Process Need Improvement to Help Ensure Veterans 
Receive Timely Outpatient Specialty Care.'' GAO found that VHA's 
management of the consult process had not ensured that Veterans always 
receive outpatient specialty care in a timely manner. VA concurred with 
all six recommendations and is taking actions to address the concerns 
raised by GAO. During the past year, VHA completed a national 
assessment of progress note completion and created technical capability 
to assess for incomplete consults. VHA implemented an interim consult 
standard operating procedure that standardizes consult management 
processes and developed a comprehensive compliance audit tool and 
protocol for robust oversight.
    Additionally, VHA established business rules outlining appropriate 
use of cancellation and discontinuation and defined the circumstances 
requiring clinical determination and documentation of the reasons for 
discontinuation. VHA standardized the procedures for future care 
consults and authorized future care consults as the only approved 
method for managing consult requests for care intended to take place 
beyond 90 days from the date the consult was created. Facility level 
consult steering committees were established to identify and share best 
practices for managing consults. VHA also developed national guidance 
for management of patient no-shows and canceled appointments. Solutions 
were implemented by extensive national consult training with all VISNs, 
weekly national consult best practice/training calls, and creation of a 
consult training module.
    Although VHA has greatly increased access through more hires and 
expanded clinic hours, demand has also significantly increased, 
resulting in Veterans waiting longer for care longer than VA's wait 
time performance standards. As mentioned above, on November 14, 2015, 
VAMCs across the country participated in the first ever National Access 
Stand Down. A team of clinical leaders, administrators and volunteers 
was on site at every VAMC to reach out to all Veterans identified as 
having the most important and acute needs to make sure that VHA is 
meeting their health care needs immediately. VHA's efforts to fix 
access issues will continue until our system can improve the health 
needs of those that need our help most.
 va oig office of healthcare inspections (ohi) access to urology report
    On October 15, 2015, VA OIG's Office of Healthcare Inspections 
(OHI) delivered its evaluation of access to care concerns in the 
Urology Service at PVAHCS. OHI determined that PVAHCS suffered a 
significant urology staffing shortage, and its leaders did not have a 
plan to provide urological services during the shortage of providers in 
the Urology Service. To fill this need, VHA has hired six Urology 
employees since January 2013.
    OHI also determined that non-VA providers' clinical documents were 
not consistently available for PVAHCS providers to review in a timely 
manner. OHI concluded that referring providers may not have addressed 
potentially important recommendations and follow-up because they did 
not have access to these Care in the Community clinical records. Even 
in the event that further recommendations were not needed, or there 
were no critical findings, this disconnect between the referring 
provider and the specialist compromised the overall management of the 
patient.
    OHI also concluded that PVAHCS Urology Service and non-VA Care 
Coordination staff did not provide timely care or ensure that timely 
urological services were provided to patients needing the care. OHI 
identified 12 patients who experienced significant issues that may have 
affected their clinical outcomes. Two were quality of care issues and 
the other 10 were wait time issues. Such delays placed patients at 
unnecessary risk for adverse outcomes. Of these, VHA conducted further 
reviews and found eight requiring institutional disclosure, six of 
which are already complete.
    VHA concurred with all three of OHI's recommendations and provided 
acceptable improvement plans. To address OHI's recommendation that 
PVAHCS ensures that resources are in place to deliver timely urologic 
care to patients, the facility has hired additional staff to provide 
urologic care. Currently, PVAHCS has a Chief of Urology, two full-time 
urologists, and one part-time urologist, a nurse practitioner, and 
three physician's assistants. Recruitment continues for another staff 
urologist, which is the only unfilled position in Urology Service. 
According to data on PVAHCS as of December 7th, the Urology Service has 
no patients waiting on an Electronic Wait List (EWL); 3 consults aged 
greater than 90 days (all with scheduled appointments); and 99 percent 
of new patients are seen within 30 days. Appointment volume doubled 
from the previous year while the average wait time from preferred date 
was at 3days--8 days lower than it was 1 year ago. Urgent appointments 
are available within 1 day.
    To address OHI's recommendation that PVAHCS ensure that Care in the 
Community providers' clinical documentation is available in the 
electronic health records in a timely manner for PVAHCS providers to 
review, PVAHCS meets with TriWest leadership on a monthly basis to 
improve communication and assess the timely availability of records. 
PVAHCS developed a system by which patient records are downloaded from 
the TriWest portal on a daily basis. As the patient records are taken 
from the TriWest portal, they are placed in a facility folder where 
they are uploaded to Document Manager and linked to complete the Care 
in the Community consult in the Computerized Patient Record System 
(CPRS) in portable document format (pdf). The completion of the consult 
notifies the Ordering Provider automatically via CPRS Alert that the 
non-VA care consult results are available. All TriWest non-VA care 
providers are obligated by contract to provide medical records within 
14 days. TriWest is obligated by contract to load those records into 
the portal within 48 hours of receipt so VA staff can retrieve the 
information.
    To address OHI's final recommendation of ensuring that the cases 
identified in this report are reviewed and for patients who suffered 
adverse outcomes and poor quality of care, PVAHCS conducted in-depth 
quality of care reviews of the 12 identified cases and determined that 
8 protected peer reviews and 8 institutional disclosures were 
warranted. Additionally, external reviews are being conducted to 
validate these findings.
 human resources restoration and revitalization (hr3) site evaluation 
                                 report
    As part of the H.R. 3 Report, VA conducted a needs assessment for 
the PVAHCS human resources (HR) team, and the resulting report focused 
on 65 actions needed for improvement. The most notable finding of the 
assessment was the poor state of the office culture which was having a 
negative impact upon H.R. operations, ultimately impacting their core 
mission of hiring those who could provide access to care. Action plans 
were developed and implemented locally which provided a framework for 
PVAHCS H.R. operations.
                                  myva
    At the enterprise level, the work that is underway to transform VHA 
operations also supports an effective response to past events in 
Phoenix. MyVA is our transformation from VA's past way of doing 
business to one that puts Veterans in control of how, when, and where 
they wish to be served. It is a catalyst to make VA a world-class 
service provider. It will modernize VA's culture, processes, and 
capabilities to put the needs, expectations, and interests of Veterans 
and their families first. The MyVA vision provides a seamless, unified 
Veteran experience across the entire organization throughout the 
country.
    One of the five pillars of MyVA is improving the Veteran's 
experience. At a bare minimum, every contact between Veterans and VA 
should be predictable, consistent, and easy. But we are aiming to make 
each touch point exceptional. This means that Veterans should be able 
to make appointments for timely treatment. Events such as the National 
Stand Down and practices such as extended care hours improve the 
accessibility of health care in Phoenix and the Veteran's experience.
    Another of the five pillars is to enhance strategic partnerships 
that will allow us to extend the reach of services available for 
Veterans and their families. We are making it easier for Federal, 
state, and local government, as well as private sector organizations, 
to partner with VA by standardizing our partnership processes. This 
improves health care for enrolled Phoenix Veterans by making it easier 
for a Veteran to access Care in the Community, when VA care is 
inconvenient or unavailable.
                               conclusion
    VA is committed to providing the highest quality care our Veterans 
have earned and deserve. Our work to effectively and timely treat 
Veterans continues to be a top priority at PVAHCS and throughout VHA. 
We appreciate Congress' support and look forward to responding to any 
questions you may have.
                                 ______
                                 
  Letter of Revised Data from Hon. David J. Shulkin, M.D., Secretary, 
                  U.S. Department of Veterans Affairs

    The Chairman. Mr. McIntyre?

  STATEMENT OF DAVID MCINTYRE, PRESIDENT AND CHIEF EXECUTIVE 
              OFFICER, TRIWEST HEALTHCARE ALLIANCE

    Mr. McIntyre. Good morning, Senators Sullivan, McCain, and 
Flake. I appear before you today on behalf of TriWest 
Healthcare Alliance nonprofit owners led by Blue Cross Blue 
Shield of Arizona and our nearly 2,500 employees, most of whom 
are veterans or family members of veterans, to discuss the 
support that we are privileged to provide VA in 28 States and 
the Pacific, including the great States of Arizona and Alaska, 
as they execute their noble mission of caring for our Nation's 
warriors.
    Our core job is to establish a provider network and make 
sure that care is placed with it when it is unable to be 
provided by VA because of wait times or the care exceeds 40 
miles from their home.
    I am pleased to appear alongside the team from VA, led by 
new Under Secretary for Health David Shulkin, with whom I have 
been very impressed in the short time I have had the privilege 
of working in support of his leadership. I would like to thank 
him for coming to the furnace and stepping in to lead the way.
    Most importantly, I would like to say thanks to Chuck Byers 
and Nicole Morris and all the veterans in attendance today for 
their service. We are inspired and humbled by your presence. 
Know that we will not rest until the final refinements of 
Choice are in place and the program has achieved its potential.
    Mr. Chairman, I ask that my written testimony be accepted 
into the record.
    The Chairman. Without objection.
    Mr. McIntyre. General George Patton once said, ``A good 
plan violently executed now is better than a perfect plan 
executed next week.''
    I cannot speak to pre-April 2014, but all of us associated 
with the effort since to ensure that access exists for veterans 
when and where it is needed here in Arizona and elsewhere know 
firsthand the definition of a good plan violently executed. In 
fact, it was the result of a collaboration that we were able to 
collectively in Phoenix work off the waitlist of nearly 15,000 
veterans, as the country was learning about Phoenix and the 
fact that it was not the only place where supply did not match 
demand.
    Though the Department of Defense took nearly 3 years for 
the design and implementation of TRICARE, the situation post-
April 2014 in VA called for a schedule for more aggressive, 2 
months for design and 1 month for execution.
    I would say that our fellow citizens who bore the costs of 
battle deserve such intensity. Senators, initial success was 
achieved with the design, production, and mailing of the Choice 
cards to veterans, with more than 9 million delivered. The 
phone systems were fully operational on day 1 and care began to 
be placed in the community.
    Most in industry said it would take 12 to 15 months just to 
do that, but we all got it done in 30 days, a good plan 
violently executed. But, that was a year ago.
    Since then, as you know, you and your colleagues in 
Congress have broadened the definition of an authorization so 
that cancer patients, pregnant moms, and post-surgical cases 
will no longer face a 60-day care authorization limit. You 
broadened the definition of 40 miles, and you removed the pre-
August 2012 enrollment limit.
    For our part, we and VA have been collaborating fully, 
implementing a program to support the Phoenix VA medical center 
in its emergency room to ensure that when patients show up with 
mental health emergencies and cannot be handled directly by VA, 
then we are able to place them downtown. We placed 166 veterans 
in the last couple of months, providing them with needed 
protection.
    We have identified and are working to close gaps in 
operation. We have developed and refined tools to better 
support the needs of veterans, providers, and our staffs. We 
have identified unmet demand and further expanded the provider 
network to bring care even closer to home. We are identifying 
resolutions to claims challenges that are needed, just like we 
did in the early days of TRICARE, on our road to becoming the 
fastest and most accurate payer in the marketplace.
    While we are not done and we are not where we want to be, I 
think we are making progress. Today, there are more than 11,600 
providers in the network in Arizona, more than 156,000 across 
the 28 States that we are privileged to serve. Three hundred to 
500 are being added still daily.
    Second, the number of appointments sought has grown from 
2,000 in November 2014 to an expected 110,000 this month. For 
those of you who did your math quickly, that is an increase of 
4,900 percent in that period. In Arizona, we will be delivering 
on more than 4,000 appointments this month.
    Our staff has had to grow from March at 400 to now almost 
3,000 individuals.
    Third, we have handled 3.8 million veteran calls in that 
period, volume that has grown at 20 percent a month, with more 
than 690,000 in November alone.
    Our abandonment rate is a mere 3 percent. We are not where 
we want to be yet. We do not like it at 3 percent. We would 
like lower. We want to be at the same industry-leading 
performance that we were in TRICARE, as validated by five 
successive J.D. Power awards.
    Full success? Not yet. However, we believe that together we 
can get there faster than we did in TRICARE, and our Nation's 
veterans deserve no less.
    So, what is the work that remains, from our perspective?
    First, we are implementing major improvements in provider 
experience that was developed in collaboration with the 
providers from our network and our longtime partners at the 
Arizona State University (ASU) customer service institute.
    Second, we are approaching the second round of demand 
forecasting with VA to determine where a network is optimally 
placed.
    Third, we are soon going to train the behavioral health 
providers in our network on veteran experience in combat, just 
like we did in the early days of the war under TRICARE.
    Fourth, we will soon be implementing the expansion and care 
authorizations for cancer, pregnancy, and post-surgical 
patients.
    Fifth, we are going to be embedding staff at the VA 
facilities here in Phoenix and in Alaska to re-create the 
successful service center concept that we developed in TRICARE.
    Sixth, we will be relentlessly focused at the start of next 
year on gaining feedback from veterans and partnering with ASU 
to improve veteran experience.
    Senators Sullivan, McCain, and Flake, I believe the overall 
experience is getting better, but we have a lot of work to do 
before we achieve the vision that you and your colleagues had 
in the unprecedented action to both authorize and fund the 
Choice Act in one bill.
    It is with deep humility and profound respect for our 
fellow citizens who put it all on the line for our freedom that 
we continue to lean forward. The same is true for our owners 
who by the end of March 2016 will have invested nearly $60 
million of their own money in an effort to scale, stabilize, 
and ultimately refine our operation, so that we achieve our 
potential and honor the commitments we made when we stepped 
forward to be the high-performing partner to VA that we were to 
DOD in TRICARE.
    We take our responsibility very seriously for VA, for 
veterans. This Committee can rest assured that our entire focus 
is on ensuring that our work in support of VA and the veterans 
who rely on them for care is fitting of the sacrifices of our 
heroes and is worthy of their trust.
    It is for this reason that we will remain impatiently 
focused on the path of violently executing the plan until we 
achieve the success that we know is possible.
    Mr. Chairman, this concludes my testimony.
    [The prepared statement of Mr. McIntyre follows:]
   Prepared Statement of David J. McIntyre, Jr., President and CEO, 
                      TriWest Healthcare Alliance

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, Mr. McIntyre.
    I know we have a number of questions. I will begin with 
Senator McCain.
    Senator McCain. Thank you for your testimony.
    Dr. Shulkin, you have made a very favorable impression on 
those of us who have had dealings with you. I believe that you 
are working very hard, and I also appreciate your efforts to 
improve our communication and relations with Members of 
Congress, including the Veterans' Affairs Committee. I thank 
you and Dr. Lynch for coming out here to be at this hearing 
today.
    Mr. McIntyre gives a rather optimistic view.
    In front of you is a chart that shows that obviously 
veterans waiting over 30 days for appointments, it kind of 
contradicts what Mr. McIntyre said, because if TriWest was 
doing the great job that he claims, I would think that veterans 
waiting over 30 days for medical appointments would show a 
decline.
    Maybe you can respond to that, whether you disagree with 
that chart, or what your comments are about that.
    Dr. Shulkin. Thank you, Senator.
    First of all, I do want to thank you as well. I think that 
all three of you, your willingness to speak out on behalf of 
veterans and to work with us to improve the system is very much 
appreciated. As you know, Senator, I believe unless we do this 
together, we are not going to achieve the best results. I thank 
you again.
    The wait times that currently exist are not acceptable to 
VA. That is why we are working so hard to make this better.
    The way that we are working is really a dual approach. We 
are hiring additional staff in the Phoenix VA. We have hired 
over 600 new employees. We are adding space; we recently added 
some space and have additional plans to add significantly more 
space. We are improving our efficiencies, so we are working 
internally.
    Most importantly--again, thanks to Congress, because of 
your leadership with the Choice plan, we have really utilized 
care in the community. We are about 80 percent in terms of care 
in the community from where we were.
    Now we have a lot more to go, but I want to make one 
additional point.
    As we have been saying recently--really I think Dr. 
Mitchell made this point--as VA gets better and veterans regain 
their trust in the VA, we are going to see more veterans coming 
back to get care in the VA system. So, our overall wait times 
are probably not going to go down.
    What we are really focused on now is making sure that 
nobody who is waiting is being harmed. We are focusing on those 
veterans who need care with the highest priority, the most 
urgent care.
    We can really tell you that is what our stand down was 
about, making sure that people who need care are getting in to 
see VA or getting into care in the community. We are not 
satisfied with that, Senator. So, we are making sure that 
people are not waiting and being harmed.
    Senator McCain. It seems to me, then, from what you are 
saying, that wait times will not go down anytime soon. That is 
an urgent call to make the Choice card universal.
    Dr. Shulkin. Senator, I think that is accurate. We are not 
saying that wait times overall are going to go down 
significantly or at all. In fact, as we improve the system, 
they may actually go up.
    That does mean that we need to make sure that we are 
working better with providers in the community using the Choice 
program. We are focused on improving the Choice program. That 
is why we submitted a new plan to Congress that asks for your 
help in making sure that we can make this system work better 
for veterans.
    We need legislation for new provider agreements. We need 
the flexibility to have funding for care in the community be in 
a single pot rather than separate programs. We want to make 
this program that you gave us work even better than it is 
working now.
    Senator McCain. Well, I do not want to belabor the point, 
but I think the prospect of veterans waiting over 30 days, no 
matter what their medical need, is not acceptable. If they had 
a Choice card, they would not have to wait 30 days. They could 
go out the next day and get an appointment with the physician 
of their choice.
    Ms. Fogarty, do you have full confidence in your emergency 
room today?
    Ms. Fogarty. Senator, thank you. The emergency room has 
really experienced quite a lot of change over the past year and 
made several improvements. I would like to give you a sense of 
what those are.
    We have increased the ER and mental health staffing. We 
have increased the space, as Dr. Mitchell identified, and we 
currently have a construction project underway.
    We have added 24/7 social work coverage that was not there 
before. We have approved and recruited additional psychiatry to 
also have 24/7 coverage. We have added five mental health RNs 
to the ER. We have established a standard medical clearance 
protocol for patients that need to be admitted to our mental 
health.
    We really thank our partners with TRICARE and TriWest 
because they do allow us, when we are full, to have care in the 
community, they would be allowed to take our patients that we 
could not.
    We have had standardized training in documentation for 
patient safety, observers called sitters, who are sitting and 
watching any suicidal ideation patients that come in. We 
redesigned four of those exam rooms and a restroom to make them 
safer for suicide ideation patients, to help prevent a serious 
elopement.
    Senator McCain. You are aware of the Clay Hunt Suicide 
Prevention Act?
    Ms. Fogarty. Yes, Senator, very much.
    Senator McCain. Is that helpful?
    Ms. Fogarty. It is, and we thank you for that.
    It is one of those that we worry the most about, those 
coming with suicide ideation. We really have to be the most 
diligent on those who come.
    Senator McCain. Do you have some examples of intervention 
that have saved some lives? I do not ask for them, but you do?
    Ms. Fogarty. Oh, absolutely.
    Senator McCain. Are physicians leaving the Phoenix VA?
    Ms. Fogarty. Are physicians leaving?
    Senator McCain. Are physicians leaving the Phoenix VA?
    Ms. Fogarty. No, sir.
    Senator McCain. They are not.
    Ms. Fogarty. As you saw here, of what we have netted of 600 
FTE, we have hired over 160 on the Veterans Access, Choice and 
Accountability Act funding for us. I can give you some 
specifics on the physicians.
    Senator McCain. That is all right.
    Ms. Fogarty. We do have attrition, as you know, physicians 
who retire or do leave with family moves. We have had six.
    Senator McCain. You do not have physicians leaving the VA. 
Thank you.
    Mr. McIntyre, what has been your experience with the Choice 
card? Does it need to be made universal?
    Mr. McIntyre. I think it is starting to take hold in terms 
of its use. The fact that there are 110,000 appointments that 
are going to come our direction this month from 2,000 at the 
start of this indicates that we are on the right----
    Senator McCain. Mr. McIntyre, the fact that there were only 
2,000 at the start is because they did not know about it. So, 
please do not keep throwing that one up at me.
    I want to know whether you think the Choice card should be 
made universal or not.
    Mr. McIntyre. I think the people's ability to access care 
downtown when it is not available in the VA and when it is not 
close to their home is exactly the right thing to be doing.
    Senator McCain. What impediments to you see to better 
usage?
    Mr. McIntyre. I think that people understanding the 
program, first of all, from an education perspective, which we 
all can share in, is valuable. Second, I think changing the 
kinds of policies that have been changed will help smooth this 
out. Third, I think our operations need to continue to get 
stronger and more integrated in order to make this process work 
more effectively.
    Senator McCain. Thank you.
    Dr. Shulkin, one of the sources of great frustration to 
many of us, especially here in Phoenix, is the fact that it is 
undeniable that there were really people who did not do their 
job. Otherwise, we would never have had 50 veterans who were on 
a nonexistent waiting list.
    Yet, to our knowledge, maybe you can help us out, there is 
only one person--one person--that has been removed from office. 
People do not understand that when 50 people die on a 
nonexistent waiting list and there is only one person that is 
held responsible, and many others are on ``administrative 
leave'' with full pay, paid for by the taxpayers. Please help 
us out on that one.
    Dr. Shulkin. Senator, we hear that frustration loud and 
clear. There is no question about that. We did remove the 
director, as you said. We placed two other officials on 
administrative leave.
    Senator McCain. That means paid. That means being paid.
    Dr. Shulkin. Paid administrative leave.
    We would very, very much like to conclude our 
administrative and disciplinary actions against those two 
officials. The U.S. Attorney, as I said in my statement, has 
prohibited us from interviewing those individuals. The OIG just 
30 days ago gave us 10,000 additional pages of evidence on 
these individuals, and last week an additional 1,000 pages. As 
soon as we can go through that evidence, we are committed to 
making an action.
    On December 9, Deputy Secretary Gibson testified before the 
House committee and said we are no longer going to wait for the 
IG to act. VA will act independently as soon as we can.
    We are committed not to putting additional people on 
administrative leave, but we will detail them to work. If the 
taxpayers are paying these individuals, they need to be 
working.
    Those are changes in the way that we are going to be 
dealing with this in the future.
    Senator McCain. Well, I thank you, but I would remind you 
what you know, and that is the Senior Executive Service is a 
unique situation, as opposed to your average civil servant. The 
SES people are eligible for many benefits and rewards for 
excellent performance, but they are also liable or can be fired 
and removed from office with much less reason than an ordinary 
member of the civil service.
    Many of these individuals who were in charge are members of 
SES, and yet that option has not been exercised. Maybe you can 
respond to that.
    Dr. Shulkin. Yes. Since Secretary McDonald was sworn in, 
July 2014, there have been eight SES removed by the Secretary. 
That option is available to him.
    I think that we are all firm believers--the Secretary, the 
Deputy Secretary, and myself--in accountability. We have 
articulated that we believe we must do this principally based. 
There has to be evidence to match the actions or the punishment 
or the reward.
    We are making sure that the evidence does match this. We 
hear you loud and clear, and VA is committed to moving quicker. 
We will not wait for IG actions in the future because it is 
very important that people understand that if people are not 
following our values, they do not belong in the VA.
    Senator McCain. Thank you.
    I thank you, Senator Sullivan.
    I just want to repeat again, Dr. Shulkin, you have been, I 
believe, admirably involved with Members of Congress in 
communicating with us and being frank in your assessments. That 
is appreciated by Members of this Committee. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator McCain.
    I want to make a quick comment, just on what he mentioned 
to Ms. Fogarty. The Clay Hunt Suicide Prevention Act, which was 
the first bill that I cosponsored in the U.S. Senate, named 
after a young Marine sniper who suffered through despair and 
did not get the service that he needed from the VA and ended up 
taking his own life.
    The number 1 cosponsor of that bill in Congress, which 
passed unanimously, was Senator McCain. That is what he was 
referring to. Let us talk about an issue that really matters, 
veteran suicide, and the one member of the U.S. Senate who has 
led on that more than anyone is Senator McCain.
    I am glad to see that is having an impact, because there is 
nothing worse--nothing worse--whether it is a Vietnam vet or a 
vet from Iraq or Afghanistan, coming back experiencing 
depression and despair and having nowhere to go. That is 
probably our highest responsibility, to take care of those 
veterans.
    Senator Flake?
    Senator Flake. Thank you.
    Ms. Fogarty, if Ms. Morris were to go to the VA emergency 
room today like she did before and present the same symptoms, 
what would be her experience?
    Ms. Fogarty. First, I would like to acknowledge how 
disappointing to hear those statements of a veteran coming to 
our emergency room and having that wait. It just is not what 
our standard of care should ever be.
    Today, I believe that she would have a very different 
experience in what we have approved and made. I would also 
believe that there is that opportunity with the Choice card 
that she could seek care in a private facility and have that 
reimbursed as well.
    Senator Flake. If she were to go down to the ER, her wait 
time in the ER itself would be considerably shorter, and she 
would have a different experience than she had before?
    Ms. Fogarty. I would truly hope that is the experience, 
because that is what we are working on, always to have 
exceptional experiences, and have done great things in our 
emergency department to make that experience be----
    Dr. Shulkin. Senator Flake, let me just add, the average 
wait time in our Phoenix E.D., from the time that you register 
to when you see a physician or provider, the average is 35 
minutes. That is an average.
    You will still find times in an emergency department where 
there are critically ill patients and patients like Ms. Morris, 
that do not have a critical illness, will wait a lot longer 
than the patient wants to.
    This is a national issue with emergency department 
overcrowding. So, we would not want to say that this would be 
her experience, but there would be times when patients will 
wait.
    Senator Flake. All right. Thank you.
    Dr. Shulkin, I, like Senator McCain, believe we need to get 
to a point where the Choice card is used universally and not 
with restrictions on mileage or whether there is a clinic or 
whatever else. But, that gets to the nut of the whole issue 
here, how much Choice can the VA withstand?
    If a significant number of veterans choose that option, at 
what point does it impact the ability of the VA to have the 
funds and resources to operate at facilities and have the level 
of care that veterans should expect? Are we close to that 
tipping point? Is that why we have the restrictions that we do?
    Can you explain that conundrum that we are in?
    Dr. Shulkin. Sure. Senator, it is a very complex issue, as 
you said. First of all, as I previously said to Senator McCain, 
we are very grateful for Congress' leadership in providing us 
the Choice program. We think it was the right thing to do and 
we want to make this program work better for veterans. We know 
too many veterans have experienced the complexity of it, the 
confusion, the lack of knowledge about it, as has been 
mentioned. We are committed, as Mr. McIntyre said, to making 
this program work.
    We have submitted what we think is a very thoughtful plan 
to Congress that we delivered approximately a month and one-
half ago that lays out how we want to take the original Choice 
legislation and make it work better. We need your help.
    We need provider agreements as soon as possible. We need 
the flexibility to make the spending easier for us to serve 
veterans and offer care in the community.
    We are very much in support--VA has been providing care in 
the community for years. Over $10 billion of our dollars were 
spent for care in the community.
    We think our plan is a very thoughtful balance of keeping 
the VA strong, because America needs a strong VA, and serving 
veterans by allowing them the ability to seek care in the 
community with the highest quality providers.
    Senator Flake. Mr. McIntyre, has the VA done enough to 
advertise the Choice plan among veterans and to ensure that 
they understand their rights and ability to access private 
care?
    Mr. McIntyre. I think the VA has done a remarkable job over 
the last couple of months of really stepping up the focus in 
that arena. Part of the thing we are all hampered by----
    Senator Flake. Your comment implies that it is only a 
recent phenomenon?
    Mr. McIntyre. No. At the very front end, we had 30 days to 
stand this up. It is hard to educate people internally and 
externally in an effective manner. There has been a real effort 
within the VA to figure out which populations need to be 
reached and how we do that collectively more effectively.
    What I will tell you, though, is part of the challenge we 
all face is that the policies have not yet stabilized for how 
this all works and where you access and what the limitations 
are.
    I would encourage that once that is done by, essentially, 
what is going to be the end of January, that there is dramatic 
new push by everybody, including the media and Members of 
Congress, ourselves, and the VA, to make sure that people 
really understand what it is that they have.
    It is rather remarkable. We have providers all over this 
State, so that if you live in a rural area, the number of 
primary care providers that are accessible to you is rather 
dramatic. You have new rights under the Choice program to 
actually go and seek care in the ZIP Code in which you reside, 
not to have to drive a long distance in order to get that care.
    Senator Flake. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Flake.
    I want to echo Senator McCain's comments about Dr. Shulkin. 
For the audience's knowledge, he came on board as the Under 
Secretary, the number 3 official at the VA, just in August. As 
I have said, he certainly did not cause these problems. He is 
someone from the private sector, an accomplished doctor who has 
run hospitals. He wants to do what is right to fix the 
problems, and he is aware that the Committee will not be 
standing by if we do not see the problems are being fixed.
    So, Dr. Shulkin, I did want to follow up on what Senator 
McCain talked about on accountability. I think it is really 
important for Members of Congress but, more importantly, 
members of our veteran community across the country to see that 
something is being done.
    You mentioned that we hear you loud and clear what you said 
to Senator McCain. I was disturbed by reading a recent article 
in The Washington Post on a House Veterans' Affairs Committee 
hearing just last week with Deputy Secretary Gibson not 
sounding like he is hearing us loud and clear at all.
    He said, when asked about accountability of members of the 
VA, he was pushing back, saying, ``You cannot fire your way to 
excellence. In my many years in the private sector, I have 
never encountered an organization where leadership was measured 
by how many people you fire.''
    ``We will not administer punishment based on IG opinions, 
referrals to the Department of Justice, recycled and 
embellished media accounts, or external pressure. It is simply 
not right.'' He called some of these cases ``failures of 
judgment, but not ethical breaches.''
    Last week, the number 2 guy in the VA sounded like he was 
pushing back against Congress' very legitimate questions about 
who is being held accountable in the VA. So, I think one of the 
things that we would want you to do is take back to the Deputy 
Secretary and the Secretary of VA that I certainly do not think 
that those kinds of statements are appropriate. It does not 
sound like he is getting the message at all loud and clear.
    To go back to Senator McCain's question, how many VA 
officials in the last 2 years over all these scandals and wait 
times and our veterans not being treated the way they should be 
treated, how many VA officials have been terminated from their 
jobs?
    You come from the private sector. You have a very, very 
stellar record in the private sector. I know that the hospitals 
you worked at would be firing a lot of people had things like 
this that happened in Phoenix.
    What is the number?
    Dr. Shulkin. Senator, as you said, I have been in the 
system only a few months. I will tell you, I spend a fair 
amount of my time with Deputy Secretary Gibson and Secretary 
McDonald talking about these issues. I will tell you these are 
two of the finest leaders I have ever worked with in my career. 
They take this very seriously. I do not think that is an 
accurate representation of the Deputy.
    The Chairman. I was simply quoting him.
    Dr. Shulkin. Yes, absolutely.
    Where the Deputy stands on this, I know the Secretary as 
well, is that we are committed as leaders, and I stand right 
with them, that we are going to take a look at the evidence and 
we are going to make decisions about who deviates from values 
and policies, and we are going to hold our employees 
accountable.
    What we are not going to do, we are not going to have 
people tried in the press and tried through allegation. We are 
going to treat people fairly, because that is the way you run 
great organizations.
    The data that you asked for, eight SES have been removed 
since the Secretary was confirmed in July 2014, and 2,100 
employees have been terminated. We will continue to hold people 
up to these accountability standards and we are going to use 
the evidence.
    What the Deputy said in that hearing was that he welcomes 
anybody else, a Member of Congress, to come and look at that 
evidence and show him if we are not making good decisions. But, 
he is going to uphold his leadership responsibility, and I 
stand with him on that.
    The Chairman. Twenty-one hundred VA employees have been 
terminated for wrongdoing since these scandals?
    Dr. Shulkin. Since July 2014 when the Secretary was 
confirmed.
    The Chairman. Perhaps for the record you can provide us the 
details on those and the eight that you mentioned.
    Those have been fully terminated or, as Senator McCain 
mentioned, are on leave?
    Dr. Shulkin. No, those SES have left service. They have 
either been terminated, have resigned, or chosen to retire.
    The Chairman. So, I would like, for the record, the detail 
on all of those for the Committee's review.
    Dr. Shulkin. Yes, sir. I will be glad to do that.
    The Chairman. Thank you.
    Another quick question is something that you and I saw in 
Alaska that I continue to see, which I think is something that 
we need to continue to work on. I still see veterans who come 
up to me talking about appointments they have had--you and I 
saw this when we were up there--that have been approved by the 
VA and somehow the reimbursement is not happening quick enough 
and these veterans are now being sent to collection agencies. I 
am still seeing that.
    I would like to get your commitment to work with the 
Committee to put a halt to this. The idea that a veteran gets 
approved by the VA for an appointment, goes to it, the provider 
either through TriWest or the VA does not reimburse what has 
happened with regard to who is providing the service, and then 
a debt agency is collecting upon the veteran is outrageous.
    You saw it when we were up in Alaska. I am still seeing it. 
I would like to get your commitment to work, both of you, Mr. 
McIntyre, on this issue, which just obviously adds enormous 
stress for our veterans, when a collection agency is calling 
them, saying they have a $50,000 bill.
    Dr. Shulkin. Yes. First of all, I heard this with you, 
absolutely. It is outrageous. We do not want that to be 
happening. If the VA authorizes care, the veteran should not be 
held accountable for that. You have my commitment. That should 
not be happening.
    I would like to get the names and the specifics of anybody 
you are hearing about from any of your offices, and we will 
intervene to make sure that it does not happen.
    The Chairman. Thank you.
    Mr. McIntyre, you mentioned in your testimony that the 
relationship between the VA and TriWest has matured 
substantially. What more needs to be done to develop that 
relationship in a way that ultimately does what you are 
supposed to be doing, which is benefiting our veterans.
    Mr. McIntyre. Senator, I would like to thank you for that 
question. I would also like to state that I, too, am committed 
to make sure that if you have cases where veterans are getting 
billed inappropriately by providers, that we would like to 
understand what they are so we can work those issues out, and 
we will do that in support of Dr. Shulkin.
    With regard to the maturation of this program, we believe 
that the inner-threading relationship that is starting to 
develop at the ground level is really important. One of the 
things that we are going to be launching in Alaska, as you 
know, effective January 11, is the opportunity to have a joint 
service center at the ground level.
    I will tell you that it is one thing for us to have policy-
based discussions and operational-gap discussions up at the 
top, but it is quite another thing when you get down to the 
deck plate where veterans are being served on a day-to-day 
basis.
    Your concept, which we are also going to be rolling out, 
Senators McCain and Flake, here in Phoenix of having an 
integrated service center that is located close in proximity to 
the veteran could not be more right on the money from the 
standpoint that you could walk a veteran down the hall after an 
appointment in the VA, educate them about Choice so that there 
is no lack of understanding, give them some materials, and find 
out what their preferences are in terms of appointments, how 
they would like to be contacted and the like. It is exactly 
what we ought to be doing.
    Dr. Shulkin, our organization, and our entire teams are 
working to make sure that it is going to get prototyped in both 
Alaska and Phoenix.
    The Chairman. Are you looking at, in terms of your call 
centers, which I know have been an enormous frustration for 
veterans across the country, because there is no localized 
component. So, a veteran from Arizona calls--I do not know 
where your call centers are located--but someone calls from 
Arizona or Alaska and they are having issues. Are you looking 
to start localizing and integrating those call centers 
throughout the country?
    Mr. McIntyre. Great question. Thank you for the question, 
by the way.
    When we started Choice, we had 30 days to go from a blank 
sheet of paper to full on operations on November 5. We had to 
hire 850 people, but we did not know the number until we were 
10 days out. So, we turned to a third-party vendor that 
supports other organizations in managing backup in their 
contact center operations.
    That was separate from how we were running our operation in 
PC3. We took all the calls, directed them to that organization. 
We have been weaning ourselves off of that when we came to the 
conclusion in the summer, when we were at 37,000 appointments a 
month, that we were going to face a meteoric rise in demand.
    Tomorrow we will announce in El Paso the tenth operations 
center. Eight of them are now up and fully operational. The one 
that serves Arizona is right here near Gilbert. It is in Tempe, 
and we have a number of employees here. The operation for 
Alaska is served out of Puyallup, which very effectively served 
Alaska for PC3.
    Then, what we are doing is we are inserting, on a test case 
to start with, these customer service staff at the local level, 
integrated with the VA staff, much like we did in TRICARE.
    If you can think about it, it is a hub-and-spoke operation. 
You have a hub that is subgeographic in its location, and you 
have these nodes facility-by-facility-by-facility.
    That is how we hit world-class service in TRICARE. Our 
intention is to roll out the same and be done with that by the 
beginning of March, which is the trajectory that we are on.
    The Chairman. Thank you.
    On the pilot program we talked about in Alaska, what is the 
date that it is going to be implemented?
    Mr. McIntyre. There are three phases. The first phase was 
to take all calls and route them into Puyallup for Alaska. That 
happened right after the Alaska field hearing in August that 
you chaired.
    The second phase is to place staff colocated in a service 
center within the Anchorage VA. We are also going to have other 
staff in Alaska on the ground in Fairbanks and probably in 
Southeast. That will go live January 11 and there, as we will 
do in every other location where we roll this out, we are 
taking seasoned staff that already know the market to go there 
first. Then, we will hire right behind that, so we can make 
sure we do not miss a beat.
    The third phase, as you know for Alaska and unique to 
Alaska, is that the scheduling configuration will change. We 
will have more engagement between the VA staff in Alaska and 
the veterans and the providers in that community. We are in the 
process together of finishing the design with that, so that 
will next be able to roll out.
    The Chairman. Let me ask a final question.
    Mr. Byers talked about the problem with providers being 
reimbursed and how there was an issue with the lack of 
reimbursement, and then all the veterans who had appointments 
with that provider doing urological services were going to be 
dropped.
    Have both of you been focused on making sure that those 
kind of things do not happen? That is a key element of the 
Choice Act. If the providers do not have any kind of clarity, 
it is going to be difficult for them to provide the services 
they need to our veterans.
    Dr. Shulkin. Senator, I will be glad to start, and then if 
Mr. McIntyre wants to add to this, that is fine.
    Actually, TriWest does a very good job of paying its 
providers. I think, if I am not correct, you are close to 100 
percent within 30 days. So, this is actually a problem for VA 
because TriWest pays the Choice bills. VA pays the care in the 
community bills.
    We have not been doing as good a job as we need to, in my 
opinion, in paying our providers. Coming from the provider side 
where I spent my life, when you give a service, when you see a 
patient, you deserve and expect to get paid. We are about 75 
percent payment within 30 days.
    We have antiquated roles and antiquated systems. We have 
asked for some help in this in simplifying the care in the 
community funds from Congress because we need this to get 
better.
    Our new plan says that we are going to take a look at VA's 
ability to pay and make a build-by decision, because, quite 
frankly, we either need to invest and improve a lot better in 
our payment or we need to get out of the payment business and 
give it to people who know how to do this. The status quo is 
not acceptable.
    Here in Phoenix, we, frankly, have too large of an accounts 
receivable for your big systems like Banner and Dignity and 
your other providers. We have our teams on site here in Arizona 
working out those payments right now because is it not 
acceptable to me that providers have to wait this long.
    Mr. McIntyre. If I might follow that, and thank you for the 
kind comments, we have our own challenges from time to time in 
this space.
    My dad was a doc. He served as an Army doc in Vietnam, and 
then went on to operate in private practice, including in the 
great State of Alaska as an ophthalmologist.
    What I will tell you is that it is really important, as we 
discovered in TRICARE, to make sure that the payment is timely 
and accurate, because we are asking people to stretch 
themselves and take this patient population, which they very 
much want to do, make it the least bureaucratic as we can, and 
make sure that the timing of the payment works right.
    What I will tell you is that we are gaining on where we 
want to be, but we are not there yet. We are spending a lot of 
time with providers trying to figure out where the gaps are so 
that we can make sure that we are able to give feedback to the 
VA on operations changes that we want to make and they might 
think about making. We are collaborating very closely on that.
    The Banner situation, we own a part of it, the VA owns a 
part of it. We are working together very closely to try to 
resolve those issues. I am confident that we will.
    Here is what I will tell you. We are at 95-plus percent for 
paying claims within 30 days. That is 1 year in. It took us 
longer to get there with TRICARE. What I am going to commit to 
all of you and to the veterans that we are privileged to lean 
forward for at the side of VA, and the providers in this 
community and elsewhere is we will get this right. We will get 
it right together. It is really important that it is right so 
that people do not feel like, ``The bill is not going to get 
paid over here, so I am going to send the veteran to 
collections in order to be able to pay my bills.''
    The second thing is, in urology in Phoenix, AZ, when the 
furnace lit off in April, we ultimately came to find that of 
the 14,700 on a waitlist, 3,300 of them were urology patients. 
At the time, there were 72 urologists in Maricopa County. The 
VA had us on speed dial. We rolled up our sleeves together. We 
figured out how to design a demand capacity mathematical 
process together, which we are using to grow our network 
together across the 28 States and the Pacific. Then, we figured 
out what it would take to place providers, how to do it on a 
severity basis, and make that happen.
    While Chuck was testifying, I had the information pulled 
with regard to his experience, because it was a while ago. I 
was having a hard time remembering it.
    We received his care requests from VA on June 10. We had 
him appointed on June 17. The practice that saw him took more 
than 50 percent of the 3,300 urology patients and processed 
them within 7 weeks. They should be sainted. Their patients 
agreed to step aside in their own calendars and serve people 
like Chuck. Chuck got seen initially on the 20th, 3 days after 
he was appointed.
    That is the way this should work. There are providers in 
this community and your great State and all over this country 
that said, ``I do not want to replace the VA, but I will be 
there if I am needed. Just hand me a few; and, like what we did 
with TRICARE, let me take care of them and then make sure that 
I get paid properly for the work I have done and on time.''
    That is our commitment. I know from the work I have done 
with these three, that is our collective commitment in terms of 
where we want to be. We want to get there as fast as we 
possibly can.
    The Chairman. Well, they should be sainted, but they are 
not going to continue to be committed to our veterans unless 
they are reimbursed. I think that is a key issue.
    Senator McCain?
    Dr. Shulkin. They have been and they are still in the 
network.
    Senator McCain. I want to refer you, Dr. Shulkin, back to 
that chart that shows the veterans waiting over 30 days.
    The Phoenix VA line is roughly double that of the national 
average. That, obviously, is very disturbing to anyone who 
represents the State of Arizona, that we should be almost 
double the percentage of people who are waiting over 30 days.
    We are not proud of the fact that this whole thing really 
was ignited by what happened at the Phoenix VA. I would hope 
that extraordinary efforts would be made at least to bring that 
orange line down to the blue line. That part is really 
something that is not acceptable to those of us who care about 
our veterans in Arizona.
    Dr. Shulkin. Senator, it is not acceptable to me, as well. 
As you know, the country is experiencing a shift from VAs that 
were in the rustbelt down to areas like Arizona that are very 
attractive to veterans particularly who are retiring. We saw a 
6 percent increase in unique veterans using the Phoenix VA last 
year, so we are growing. We have to plan for that. That is, in 
part, making this more difficult.
    We will not rest until we can add capacity. We have 738 
positions we are recruiting for today. We are adding new space. 
Our new director started today. We need stable leadership in 
order to make this work. I have extreme confidence in our new 
leader to be able to do this.
    I can assure you, extraordinary efforts are what we are 
going to make to get this fixed.
    Senator McCain. Thank you.
    I want to again thank the Senator from Alaska for being 
here, as one of the most important Members of Veterans' Affairs 
Committee, to conduct this hearing. I thank you, Senator 
Sullivan.
    The Chairman. Thank you, Senator McCain.
    I want to thank the witnesses from both panels. I want to 
thank my colleagues. It is an honor to be up here on the dais 
with Senator McCain and Senator Flake, two leaders in the 
entire U.S. Congress on these issues, as I mentioned earlier. 
Their names are on the legislation that we are talking about, 
and I think that is great not only for Arizona, but for the 
country.
    Finally, I want to thank our veterans who joined us today. 
I assure you, as Dr. Shulkin said, this Committee and the 
entire U.S. Senate will not rest either until we have addressed 
these issues in a way that is faithful to the service you 
provided our great Nation.
    I will mention one more time, if there are those of you in 
the audience who are interested in submitting written testimony 
to this hearing for the Veterans' Affairs Committee in the U.S. 
Senate, the email again is 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ed9d988f81848eb299889e998480828394adbe988181849b8c83c3be88838c9988c38a829bc3">[email&#160;protected]</a> You have 2 weeks to 
submit that written testimony, which would be Monday, 
December 28.
    This hearing is now adjourned.
    [Whereupon, at 11:08 a.m., the hearing was adjourned.]

 Clarification of Testimony of David J. Shulkin, M.D., Under Secretary 
            for Health, U.S. Department of Veterans Affairs

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
